<html>
<title> - NINE YEARS AFTER 9/11: CONFRONTING THE TERRORIST THREAT TO THE HOMELAND</title>
<body><pre>[Senate Hearing 111-1104]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1104
 
NINE YEARS AFTER 9/11: CONFRONTING THE TERRORIST THREAT TO THE HOMELAND

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON

                         HOMELAND SECURITY AND

                          GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
63-832                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
            Christian J. Beckner, Professional Staff Member
              Seamus A. Hughes, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                  Luke P. Bellocchi, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator McCain...............................................    18
    Senator Brown................................................    21
    Senator Levin................................................    25
    Senator Akaka................................................    27
Prepared statements:
    Senator Lieberman............................................    39
    Senator Collins..............................................    41

                               WITNESSES
                     Wednesday, September 22, 2010

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................     5
Hon. Robert S. Mueller III, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................     8
Hon. Michael E. Leiter, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........    10

                    Alphabetical Order of Witnesses

Leiter, Hon. Michael E.:
    Testimony....................................................    10
    Prepared statement...........................................    73
Mueller, Hon. Robert S. III:
    Testimony....................................................     8
    Prepared statement...........................................    66
Napolitano, Hon. Janet A.:
    Testimony....................................................     5
    Prepared statement...........................................    44

                                APPENDIX

Document for the Record submitted by Secretary Napolitano in 
  response to Senator McCain's request...........................    59
Responses for the Record from:
    Secretary Napolitano.........................................    83
    Mr. Mueller..................................................   114
    Mr. Leiter...................................................   131


NINE YEARS AFTER 9/11: CONFRONTING THE TERRORIST THREAT TO THE HOMELAND

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 2010

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Carper, Burris, 
Kaufman, Collins, McCain, Ensign, and Brown.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning. And in particular, thanks to Secretary Janet 
Napolitano, Director Robert Mueller, and Director Leiter for 
being here.
    This is an important hearing in the year of this Homeland 
Security and Governmental Affairs Committee. It is our third 
annual hearing at which we invite the three leaders of the 
three most involved and important agencies of our Federal 
Government in protecting to discuss where we are in the 
terrorist threat to our homeland, how has it evolved, and how 
have our defenses evolved against it. And it gives us an annual 
report, a snapshot picture, of where we are and what the facts 
of the past year say to us about what we can do together to 
continue to improve the security of the American people post-
September 11, 2001.
    Last week, we marked the ninth anniversary of the September 
11, 2001, attacks, and we paid homage to the 3,000 people who 
were murdered that day by Islamist extremist terrorists.
    I was struck yesterday by reading a Gallup poll in one of 
the newspapers that showed a significant decrease in concern 
about terrorism among the American people. Now, this is 
understandable, particularly because of the stress that the 
current economic conditions have put so many American families 
under.
    But as the three witnesses know very well, the threat is 
still all too real. Our Committee knows that as well. It is our 
job and yours to be focused on protecting our homeland and our 
people from violent extremists and terrorists no matter what 
the state of public opinion is about it at the moment, and that 
is why, of course, we are so happy and grateful that you are 
here today.
    The tragedy of September 11, 2001, is a daily reality for 
the three of you and the tens of thousands of men and women who 
work with you every single day to ensure that such an attack 
never happens again. In some sense, the three of you oversee a 
mighty force of literally hundreds of thousands of people that 
have been reorganized or augmented in the aftermath of 
September 11, 2001, when the Islamist extremist terrorists 
declared war on us and we responded, taking us into two active 
fields of combat, of course, first in Afghanistan and the Iraq, 
but involving us on unconventional battlefields all across the 
world, and quite significantly, which is the focus of our 
attention today, our homeland and the extent to which this 
enemy, unlike any we have ever faced, threatens our security, 
our way of life, our freedom, and is prepared to do in 
extraordinarily inhumane ways right here at home.
    Let me just share three observations about what I see over 
the last year, and I know that you will respond to this and 
other things in your opening statements.
    Since our last threat assessment hearing a year ago, it is 
clear that there has been a marked increase in Islamist 
terrorist attacks against us here at home. Most incidents, 
thank God and thanks to you and all the work with you, have 
been thwarted, some really with extraordinary, almost 
miraculous work, taking a shred of evidence, building on it, 
developing it, and finding the people who were planning the 
attack, and stopping them, capturing them before they did.
    But the fact that I know you know very well is that three 
of the attempted attacks in the last year by terrorists managed 
to break through our defenses, very different kinds of attacks; 
first, the Fort Hood shooting last November, the Christmas Day 
attack, and the Times Square bombing attempt. And, of course, 
in the Fort Hood case, 13 people died at the hands of Nidal 
Hasan. Fortunately, in the Christmas Day attempt and in Times 
Square, the explosives failed in both cases and no one was 
hurt.
    These attacks and others show the full range of threats we 
now face from lone wolves, if you will, freely-operating 
terrorists like Hasan, who, nonetheless, was motivated by 
terrorist agitators from abroad to form homegrown terror cells, 
such as the so-called Raleigh 7 or the Fort Dix plotters, or to 
become inexperienced but potentially deadly operatives, 
including American citizens directly trained by al-Qaeda or its 
affiliates around the world, as Faisal Shahzad, the Times 
Square bomber, and Umar Farouk Abdulmutallab, the Christmas Day 
bomber.
    So the first fact that comes out at me is that there is an 
increased pace of attacks against our homeland in this war in 
which we are involved, most thwarted, but three broke through. 
Second, since 2009, at least 63 American citizens have been 
charged or convicted for terrorism or related crimes. Now, to 
me, just stepping back and accumulating that number, that is an 
astoundingly high number of American citizens who have attacked 
or planned to attack their own country, our country.
    In addition to this number, an increasing number of 
Americans are now actually in leadership positions in 
international terrorist groups. Most notable is Anwar al-
Awlaki, who, through his writings and audiotapes, has inspired 
several plots against the West over the last 5 years; and in 
the case of the Christmas Day attack, apparently played a 
direct operational role.
    Like Adam Gadahn, who continues to serve as a chief 
propagandist for al-Qaeda, these are all Americans with 
citizenship status. Omar Hammami from Alabama, convert to 
Islam, featured prominently in al-Shabaab recruiting videos and 
was identified as an operational commander. Adnan el 
Shukrijumah, who grew up in the United States and has legal 
permanent resident status, is now a senior al-Qaeda operative 
and apparently responsible for the planned attack last year--or 
involved in it--by Najibullah Zazi on the New York subway 
system.
    So this is quite significant to me that we have this number 
of Americans playing an active role. I know it is an 
infinitesimal in proportion of the American public, but it is 
still a growing number of Americans and something to be 
concerned about in terms of homegrown terrorism and self-
radicalization.
    The third fact is the growing role of the Internet in self-
radicalization and homegrown terrorism, which raises the 
question of what we can do to combat the use of the Internet 
for these purposes. Many of those arrested in the last year 
have been radicalized online, influenced by al-Qaeda's core 
narrative, that the United States is at war against Islam, 
which has been tailored to a Western, English-speaking audience 
by al-Awlaki and other online violent extremists. The fact is 
that al-Qaeda and other terrorist organizations have adapted 
their online media strategies to mainstream Web sites and 
social networking tools, and that has made it easier for people 
to access extremist material and has significantly raised the 
challenge to our counterterrorism agencies who we count on to 
discover and disrupt these terrorist plots.
    So, those are three changing, evolving factors that jump 
out at me, and I look forward to your response to them. The 
bottom-line fact is that the fight against Islamist extremism 
and terrorism sure looks like it is going to go on for a long 
time to come. It is the great security challenge of our time. 
We must confront it with, in Lincoln's words, ``energy and 
sleepless vigilance'' until it is defeated. And again, I thank 
the three of you, and all who work with you, for the 
extraordinary work that you are doing, really 24/7, 365 days a 
year, to make sure that we do succeed in this fight. Thank you 
very much.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Nine years after the attacks of September 11, 2001, our 
government is challenged today by the evolving nature of the 
terrorist threat. We know that terrorists revise their tactics 
to adapt to these security measures that we put in place. As we 
have made it more difficult for terrorists to come in from 
abroad, we are seeing the escalation of a significant new 
threat that takes advantage of radicalized violent Islamist 
extremists within our borders. Foreign terrorist organizations 
are aggressively targeting these homegrown terrorists to carry 
out attacks. These home-based terrorists could decide to act 
independently as lone wolves, motivated by terrorist propaganda 
but acting on their own. Others appear to be acting under the 
direction of foreign terrorist groups.
    To be sure, overall, the United States is far better 
prepared to confront the terrorist threat than we were 9 years 
ago. Since September 11, 2001, we have created new security and 
intelligence systems to detect, deter, and defend against 
terrorism, most notably through the Intelligence Reform and 
Terrorism Prevention Act that Senator Lieberman and I 
coauthored. We have expanded our intelligence gathering and 
information sharing systems. We have erased bureaucratic 
barriers and dismantled silos. We have learned to fight an 
enemy that wears no official uniform, that has no borders, and 
that represents no State in the traditional sense of the word.
    The results have been significant. Terrorists' plots both 
at home and abroad have been thwarted, but the threat has not 
been neutralized. Indeed, it is evolving and ever changing, and 
in some ways more dangerous than ever. It is a chameleon by 
design. Al-Qaeda has extended its tentacles into regional 
terrorist organizations causing threats to emanate from new 
locations, like Yemen, through the activities of al-Qaeda in 
the Arabian Peninsula (AQAP).
    AQAP and the radicalized American who has ties to that 
terrorist organization were behind the attempt to detonate a 
bomb on a flight last Christmas Day and apparently were the 
inspiration for U.S. Army psychiatrist Major Hasan's murderous 
attack at Fort Hood.
    This Committee has been sounding the alarm regarding 
homegrown terrorism since 2006 when we held our first hearing 
on the threat of violent radicalization within our prison 
system. In all, Senator Lieberman and I have held 11 hearings 
on this issue. Our investigation has predicted a potential wave 
of future terrorist activity in this country. We warned that 
individuals within the United States could be inspired by al-
Qaeda's violent ideology to plan and execute attacks even if 
they do not receive direct orders from al-Qaeda.
    Unfortunately, our warnings have proven to be prescient. In 
the past 2 years, our Nation has seen an escalation in the 
number of terrorist attacks with roots based in our own 
country. In fact, the Congressional Research Service found that 
since just May of last year, arrests have been made in 19 plots 
by U.S. citizens and residents compared to 21 plots during the 
7\1/2\ years from September 11, 2001, to last May. That is an 
alarming, significant increase.
    On the eve of our Nation's September 11, 2001, 
commemorations, the National Security Preparedness Group, led 
by Lee Hamilton and Tom Kean, issued a timely report entitled, 
``Assessing the Terrorist Threat.'' The report said that 
America continues to face serious threats from al-Qaeda 
affiliates around the world and from home-based terrorists. It 
warned of an increasingly wide range of U.S.-based jihadist 
militants who do not fit any particular ethnic, economic, 
educational, or social profile. It also sounded this grave 
warning. The American melting pot has not provided a firewall 
against the radicalization and recruitment of American citizens 
and residents, though it has arguably lulled us into a sense of 
complacency that homegrown terrorism could not happen in the 
United States. Initially, I remember we thought this was a 
problem that Western Europe would have but that we would not 
have because of the differences in our culture.
    The Kean-Hamilton report called 2009 a watershed year in 
terrorist plots in the United States. As the Chairman has been 
pointing out, the statistics are a call for alarm. In 2009 
alone, at least 43 American citizens or residents, aligned with 
violent Islamist extremists, were charged or convicted of 
terrorism crimes in the United States or elsewhere. And this 
year to date, 20 have been similarly charged or convicted.
    We also are seeing the terrorist threat morph into another 
stage of development. While we must still remain focused on the 
catastrophic or spectacular attack on the scale of September 
11, 2001, I am convinced that terrorists are beginning to focus 
their efforts on smaller scale attacks with small arms and 
explosives, such as we saw at Fort Hood, in Arkansas, and in 
India.
    We must see the disparate attacks and the changing tactics 
for what they are, separate parts of a more dangerous pattern. 
The past 2 years have taught us, through harsh lessons, that we 
simply must increase our efforts. As the Kean-Hamilton report 
observed, it is fundamentally troubling that there remains no 
Federal Government agency or department specifically charged 
with identifying radicalization and interdicting the 
recruitment of U.S. citizens or residents for terrorism.
    We must redouble our efforts to better anticipate, analyze 
and prepare. We must address what is quickly becoming a 
daunting and highly challenging crisis. This dangerous reality 
must be met with better security measures, innovative community 
outreach, and enhanced information sharing. Most of all, we 
cannot risk another failure of imagination.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins, 
for that excellent statement.
    Secretary Napolitano, welcome, and let us begin with you.

TESTIMONY OF JANET A. NAPOLITANO,\1\ SECRETARY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Mr. Chairman, 
Senator Collins, and Members of the Committee for the 
opportunity to be here today to testify on the terrorist threat 
to the United States and what the Department of Homeland 
Security (DHS) is doing to combat it. I am very pleased to be 
here as well with my colleagues, the Director of the Federal 
Bureau of Investigations (FBI), and the Director of the 
National Counterterrorism Center (NCTC). We do a lot of this 
work together.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Napolitano appears in the 
Appendix on page 44.
---------------------------------------------------------------------------
    As was alluded to in your opening comments, the threat of 
terrorism is constantly evolving, and over the past years, it 
has become more and more diverse. It is diversifying in terms 
of sources. It is diversifying in terms of tactics. It is 
diversifying in terms of the targets being considered.
    Now, in terms of sources, the threat of terrorism is now 
emerging from more places than it was on September 11, 2001. 
While al-Qaeda itself continues to threaten the United States, 
al-Qaeda also inspires an array of affiliated terrorist groups. 
Some of these, like al-Shabaab in Somalia, have not tried to 
attack the United States. They have carried out attacks 
elsewhere, but they have leaders that espouse violent anti-
American ideology. Others, like Tehrik-i-Taliban (TTP) and 
AQAP, have attempted to attack the United States in the Times 
Square and Christmas Day bombing attempts, respectively.
    In addition, a new and changing facet of the terrorist 
threat comes from homegrown terrorists, and by which I mean 
U.S. persons who are radicalized here, and received terrorist 
training either here or elsewhere, and bring knowledge of the 
United States and the West to terrorist organizations. A clear 
trend in recent attacks has been the role of English language 
and online propaganda from operatives like al-Awlaki, a U.S. 
citizen based in Yemen.
    We are also seeing more diversity in terms of tactics. 
Recent events and intelligence show a trend toward, as you 
mentioned, Senator Collins, smaller, faster-developing plots 
rather than larger, longer-term plots like September 11, 2001. 
These plots may include the use of improvised explosive devices 
(IEDs) or teams who use small arms and explosives, both forms 
of attack have been used abroad. The results of these changing 
tactics are that there are fewer opportunities to detect and 
disrupt plots.
    Now, we are also seeing greater diversity of targets. While 
some targets, like commercial aviation, remain constant, 
others, like mass transit systems and chemical facilities, are 
among critical infrastructure that terrorists could seek to 
strike.
    These elements which make the terrorist threat more diffuse 
also make it more difficult for law enforcement and the 
intelligence community to detect and disrupt.
    Accordingly, we are moving forward in a variety of ways to 
counteract these evolving threats. The steps we are taking are 
not a panacea. However, they are substantially strengthening 
our defenses against terrorism here at home. One step we are 
taking is getting information where it should be, when it 
should be there, and in it's most useful format. In this threat 
environment, it could very well be a local police officer who 
detects or disrupts a threat rather than an intelligence 
analyst here in Washington, DC. That is why one of the top 
priorities for the department is to get information, tools, and 
resources out of Washington and into the hands of the men and 
women on the frontlines.
    Our fusion centers, which connect Federal, State, and local 
enforcement to first responders on the ground, play a major 
role in identifying, preventing, and disrupting threats. We 
support these centers through DHS personnel who work side-by-
side with State and local law enforcement.
    We are also working with the Justice Department on the 
nationwide suspicious activity report (SAR) system, which 
standardizes ways for police to identify and report suspicious 
activities and report it back to Federal intelligence so that 
they can be analyzed against current threat information to 
identify broader trends.
    We are supporting State and local law enforcement through 
Homeland Security grants, eliminating red tape so these grants 
can be used to sustain current programs rather than being 
forced to buy new equipment or technology each year, and also 
making it easier to use these funds to rehire and retain 
experienced first responder personnel.
    We are also working to raise public awareness through a 
campaign with the slogan ``If you see something, say 
something,'' which was originally used by the Metropolitan 
Transit Authority (MTA) in New York with Homeland Security 
grant funds. As we all remember, it was a New York City street 
vendor who tipped off the police about the bombing attempt in 
Times Square and the passengers themselves who thwarted the 
attack on Flight 253.
    We are working with police in communities to counter 
violent extremism in cities and towns across our country. 
Homeland Security, in fact, begins with hometown security, and 
we are working on a variety of recommendations made by a 
working group of our Homeland Security advisory council to aid 
local law enforcement in this effort. Specifically, DHS is 
using proven community-oriented policing techniques to develop 
training and hold regional summits for law enforcement to give 
them the tools they need to work with communities to combat 
sources of violence and detect threats when they arise.
    We are also working to strengthen security in several 
specific sectors. For example--and this is not an exhaustive 
list, it is just examples. In terms of aviation security, next 
week, we expect the International Civil Aviation Organization 
(ICAO), which is part of the United Nations, to issue a 
historic international agreement on aviation security, 
strengthening security measures and standards around the globe. 
And, we continue to move forward to enhance surface 
transportation security, working closely with Amtrak and mass 
transit agencies around the country to integrate our 
information-sharing efforts.
    These initiatives are only a small part of the ongoing work 
at the Department of Homeland Security. With the FBI and the 
NCTC, we are conducting initiatives every day to help secure 
the country. We are and will continue to do everything in our 
power to prevent attacks, but I want to emphasize that it is 
impossible to guarantee that there will never be another 
attack. We cannot simply put the country under a glass dome. 
What we can do is take every possible step to provide those on 
the frontlines with the information, the tools and resources 
they need to better secure our country. This is the homeland 
security architecture that we are building, and this is what 
the hardworking men and women of the Department of Homeland 
Security are devoted to every day.
    Thank you again for the opportunity to be here. I look 
forward to answering the Committee's questions.
    Chairman Lieberman. Thank you very much, Secretary 
Napolitano. That was a really good statement to begin our 
discussion with.
    Director Mueller, thanks for being here once again, and 
thanks for all the good work that you and everybody that works 
with you do every day.

 TESTIMONY OF HON. ROBERT S. MUELLER III,\1\ DIRECTOR, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Mueller. Thank you, Mr. Chairman, Senator Collins, and 
Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mueller appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    As you know, the FBI's highest priority continues to be the 
prevention of terrorist attacks against the homeland, and since 
September 11, 2001, the threat from terrorism has evolved, as 
you pointed out, in ways that present new challenges for us and 
for our partners.
    This morning let me focus on the most serious of these 
threats and give you some idea of how we are moving to counter 
them. Despite the significant counterterrorism pressure abroad, 
al-Qaeda continues to be committed to high profile attacks 
directed at the West, including plans against Europe as well as 
the homeland.
    Recent investigations have revealed some shift in their 
strategy for these attacks. In the immediate aftermath of 
September 11, 2001, al-Qaeda plots and plans focused on using 
individuals from the Middle East or South Asia for their 
attacks. Since 2006, al-Qaeda has looked to recruit Americans 
or Westerners who are able to remain undetected by heightened 
security measures. For example, last year for the first time 
since September 11, 2001, al-Qaeda successfully trained and 
deployed an operative to the United States to carry out such an 
attack. That operative was Najibullah Zazi, a lawful U.S. 
permanent resident who was plotting to attack the New York 
subway system.
    The threat from al-Qaeda affiliates has also evolved as 
other terror groups have developed greater intent and 
capability to strike at the homeland. We are increasingly 
concerned about the threats from these groups operating from 
Afghanistan, Pakistan, Yemen, Somalia, and Iraq. Their threats 
focus more on homeland attacks now, as we saw with the 
Christmas Day and Times Square attempted bombings.
    Of course, these groups are also seeking to recruit 
extremists from the West. Cooperation between al-Qaeda and 
other terrorist groups has changed in the past year suggesting 
that this threat may increase. Sharing financial resources, 
training and recruits, these groups have been able to withstand 
significant counterterrorism pressure from the United States, 
coalition, and local government forces.
    As both of you have pointed out, threats from homegrown 
violent extremists also pose a significant concern to the 
United States. These individuals may be inspired by the global 
jihadist movement or use the Internet to connect with other 
extremists even if they do not receive direct guidance or 
training from a terrorist group. Often, they have diverse 
backgrounds and life experiences, as well as differing 
motivations. Based on cases from the past year, homegrown 
extremists are more sophisticated, harder to detect, and better 
able to connect with other extremists. In certain cases, they 
are more operationally capable than what we have previously 
seen.
    Moreover, the Internet has expanded as a platform for 
spreading extremist propaganda, a tool for online recruiting 
and a medium for social networking with like-minded extremists, 
and this has contributed to the threat from homegrown 
radicalization in the United States.
    We also face a continuing threat from U.S. persons 
traveling overseas to conflict zones, seeking terrorist 
training, or combat experience. While the motivations and 
backgrounds of these individuals vary, once Americans travel 
overseas and make connections with extremists on the ground, 
they become targets for use in plots to attack the homeland, as 
we saw with the attempted Times Square bombing. And in 
particular, Somalia has drawn the attention of American 
extremists, as more than two dozen Americans have made it there 
to train or to fight in the past few years. Recent disruptions 
inside the United States show that some Americans still desire 
to travel to Somalia for extremist purposes.
    To counter these threats, the FBI has joined with our 
Federal partners and with State and local law enforcement in 
more than 100 Joint Terrorism Task Forces (JTTFs). These task 
forces operate nationwide to prevent and dismantle terrorist 
plots. Our partnerships are critical to our understanding of 
the threat environment and to protecting our Nation and its 
citizens. And the FBI, along with the Department of Homeland 
Security, and NCTC, is also committed to a nationwide approach 
for participating in State and local fusion centers.
    The FBI, the National Counterterrorism Center, and DHS have 
also joined together on initiatives to enhance our 
understanding of homegrown violent extremism. And we also 
continue to work with DHS to issue joint intelligence products 
on radicalization for our Federal, State, and our local 
partners.
    Since the September 11, 2001, attacks, the FBI has 
developed an extensive outreach program to the Muslim, South 
Asian, and Sikh communities in order to develop trust, address 
concerns, and dispel myths about the FBI and our government. In 
2009, we established specialized community outreach teams 
composed of special agents, analysts, and community outreach 
specialists to assist our field offices, establish new contacts 
with key communities, and work with DHS to address these 
concerns.
    Let me conclude by thanking this Committee for its service 
and its support. And on behalf of the men and women of the FBI, 
I look forward to working with you to continue to improve the 
FBI and to help keep America safe. I, of course, will be happy 
to answer any questions you might have, sir.
    Chairman Lieberman. Thank you, Director Mueller. At the 
beginning of your statement, you said something that is 
significant, which is that the FBI's No. 1 priority continues 
to be the prevention of terrorist attacks against the United 
States. And I know that is the truth, and your statement 
reminds us of how much our government has reorganized, 
refocused, and expanded in response to September 11, 2001, to 
prevent terrorist attacks against our homeland.
    We have two agencies here who did not exist on September 
11, 2001, DHS and NCTC. And in the case of the FBI, we have an 
agency that obviously was somewhat involved in counterterrorism 
but has greatly increased its role, involved with not only law 
enforcement but prevention. So I hope that is something that is 
noticed not only by the American people but by those who would 
think of attacking us.
    Michael Leiter is the Director of the National 
Counterterrorism Center, which was one of the most significant 
results of the 9/11 Commission report and the Intelligence 
Reform Act that began in this Committee and passed Congress, 
signed by President Bush. Thanks for being here, Mr. Leiter.

  TESTIMONY OF HON. MICHAEL E. LEITER,\1\ DIRECTOR, NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Leiter. It is my pleasure. Thank you, Chairman 
Lieberman, Senator Collins, and distinguished Members. It is 
always good to be here, especially with Director Mueller and 
Secretary Napolitano. I can tell you that there is virtually no 
terrorist event or issue that comes up when the three of us do 
not work in a very close partnership.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Leiter appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    Chairman Lieberman, Senator Collins, as you have already 
noted, the past year has noted the most significant 
developments in terrorism since September 11, 2001. The three 
attempted homeland attacks during the past year from overseas-
based groups and the two lone-wolf attacks here in the United 
States, by Carlos Bledsoe in Arkansas and Nidal Hasan, surpass 
the number and pace of attacks during any year since September 
11, 2001. The range of al-Qaeda core-affiliated and allies 
plotting against the homeland during the past year suggests the 
threat has, in fact, grown far more complex and underscores the 
challenges of identifying and countering a more diverse array 
of threats to the homeland.
    Al-Qaeda's affiliates' and allies' increasing ability to 
provide training, guidance and support for attacks against the 
United States makes it very difficult to anticipate the precise 
nature of the next attack and from where it might come. The 
regional affiliates and allies that have grown have been able 
to compensate, to some extent, for the decreased willingness of 
al-Qaeda and Pakistan to accept and train new recruits. And 
additional attempts by al-Qaeda affiliates and allies to attack 
the United States, particularly attempts in the homeland, could 
attract the attention of even more Western recruits, thereby 
increasing those groups' threat to the homeland.
    Even failed attacks, such as AQAP's and TTP's attempts this 
part year, do, to some extent, further al-Qaeda's goal of 
fomenting terrorist attacks against the West and demonstrate 
that some affiliates, allies, and homegrown terrorists are 
embracing their vision.
    Now, today al-Qaeda in Pakistan is at one of its weakest 
points organizationally, but I would stress a significant 
however, that the group has time and time again proven its 
resilience and remains a very capable and determined enemy.
    The threat to the homeland is, as you have noted, 
compounded significantly by operationally distinct plotting 
against the United States by its allies, affiliates, and 
sympathizers. Now, with respect to regional affiliates, I think 
it is worth highlighting four of particular concern. First and 
most notably is AQAP in Yemen and we assess that it continues 
to pose significant threats to U.S. interests in Yemen and that 
it continues to plot against the homeland.
    Of additional note, as both Senator Lieberman and Senator 
Collins noted, dual Yemeni-American citizen, Anwar al-Awlaki, 
who played a significant role in the attempted airliner attack 
over Detroit, continues to be a key concern given his 
familiarity with the West and his participation in AQAP 
external operations.
    In addition, East Africa remains a key locale for al-Qaeda 
associates, and Somalia-based terrorists associated with the 
insurgent group, al-Shabaab. Some al-Shabaab leaders share al-
Qaeda's ideology and publicly have praised Osama bin Laden and 
asked for further guidance from the group. And as Director 
Mueller noted, more than two dozen Americans, most ethnic 
Somali but not all, have traveled to fight in Somalia since 
2006. Now, of course, the potential for those trainees to 
return to the United States or elsewhere in the West remains a 
very significant concern. And I think it is also worth noting 
that al-Shabaab has vividly illustrated its commitment to 
attacking outside Somalia, most tragically in the waning days 
of Africa's first-ever World Cup with a deadly attack, a series 
of coordinated deadly attacks in Kampala, Uganda.
    In North Africa, al-Qaeda and the Islamic Maghreb remains a 
persistent threat to the U.S. and Western interests primarily 
in the form of kidnapping and ransoms, but we are, of course, 
concerned with their potential to reach beyond North Africa.
    Finally, in Iraq, although the counter terrorism successes 
have greatly diminished al-Qaeda in Iraq's effectiveness, we 
continue to see them as a key al-Qaeda affiliate and having 
continued interest in attacking beyond Iraq.
    Now, as this Committee has very effectively noted, the 
spike in homegrown violent extremism is indicative of a common 
cause that has undoubtedly rallied some individuals within the 
United States to al-Qaeda's banner. In plots disrupted in New 
York, North Carolina, Arkansas, Alaska, and Texas, all of these 
were operationally distinct but are indicative again of a 
collective subculture and common cause that has rallied these 
independent extremists. And undoubtedly, the Internet, as you 
noted, has been a significant factor in many of these attacks 
or plots.
    Now, although we are focusing on al-Qaeda today, I do 
believe it is important to note, we continue to try to keep our 
eye on groups like Lashkar-e-Taiba, Hamas, and Hezbollah that 
threaten U.S. interests abroad and potentially within the 
United States.
    Now, given this very diverse landscape, and especially the 
failed attack over Detroit on Christmas Day, at your 
instruction and at the President's direction, we have 
implemented several changes to try to address the diversity of 
this threat. As you know, NCTC led the Director of National 
Intelligence Master Action Plan to make sure that analytic 
resources were appropriately aligned with this new threat and 
to appropriately allocate additional resources that the 
Congress generously gave the counterterrorism community.
    Second, we created pursuit groups which focus at a very 
granular level on those issues which might not immediately 
appear to be threats to the homeland but can, as in cases like 
Christmas Day, manifest themselves in tragic ways. In addition, 
we have worked with the entire interagency, especially DHS and 
FBI, to review watchlisting protocols and improve our 
watchlisting effort.
    Finally, we have spent significant time, effort, and 
leadership on developing an improved information technology 
infrastructure to better meet the demands of increased 
information sharing with this diverse threat.
    Now, finally, as this Committee knows, NCTC has both an 
intelligence and a policy responsibility for coordinating 
across the U.S. Government. And on that front, although I do 
not want to speak about all of those areas, I would like to 
briefly speak to our efforts to coordinate combating violent 
extremism, especially here in the homeland.
    Senator Collins, you noted the quote from the Kean and 
Hamilton group that we were somehow lulled into a sense of 
complacency about homegrown extremism. I will take the liberty 
of speaking for everyone at this table and tell you that none 
of us, nor anyone in our organizations, were lulled into any 
sense of complacency. And to the extent there was complacency, 
I think it occurred outside, not inside the counterterrorism 
community.
    But I would note, there is some truth to the idea that no 
one single organization is responsible for countering 
radicalization. But from my perspective, that is actually a 
good thing. In fact, there is centralized policy oversight of 
combating violent extremism at the National Security Council; 
there is, in fact, centralized coordination of those efforts at 
NCTC; and there is also centralized assessment of the 
effectiveness of those programs at NCTC, providing that to the 
White House.
    What there is, though, is decentralized execution of 
programs related to countering violent extremism in the 
homeland. And from my perspective, I think that is particularly 
important because the issue is so complex that no one 
organization, FBI, Department of Justice, or DHS, is in a 
position to address all of the factors of violent extremism. So 
I think it can be somewhat misleading to suggest that no one is 
in charge. I think, in fact, there is centralized coordination 
and decentralized execution of the programs, which have to be 
very varied to combat a varied threat. And, of course, I am 
very happy to discuss this more in your questions.
    In conclusion, I, again, want to thank this Committee. This 
Committee was instrumental in the creation of NCTC and the 
Department of Homeland Security. This Committee has helped us 
keep our eye on the ball for violent extremism, both 
domestically and abroad, and I look forward to continuing to 
work with this Committee as the challenges do change and we 
hope we get on top of this threat.
    Chairman Lieberman. Thank you very much, Director Leiter. 
We will do 7-minute rounds of questioning.
    Let me begin with a current situation and ask you to 
respond to the extent that you can. And I am going from public 
sources here. There have been public statements over the last 
month by Homeland Security officials in Europe, particularly 
France, England, and Germany, about heightened threat levels. 
And I wonder if you would care to comment at all, particularly 
whether the statements and actions taken in Europe suggest the 
same for--that is to say a heightened threat level for the U.S. 
homeland as well.
    Secretary Napolitano.
    Secretary Napolitano. Mr. Chairman, thank you. There have 
been a number of activities in Europe. We are in constant 
contact with our colleagues abroad. Indeed, I will be at a 
meeting next week on this topic. I think in an open setting, 
suffice it to say that we are all seeing increased activity by 
a more diverse set of groups and a more diverse set of threats, 
and that activity, much of which is Islamist in nature, is 
directed at the West generally.
    Chairman Lieberman. Director Leiter, do you want to add 
anything to that?
    Mr. Leiter. Mr. Chairman, I would largely echo what the 
Secretary said. One thing I would note is that these levels, 
although they are only apparent to the public sometimes, are 
constantly up and down for us. We track a lot of things that 
never become public and we do not want them to become public 
because that would undermine our ability to disrupt those 
threats.
    September 11, 2001, and the period around that is always a 
time of elevated threat, and I think we have worked quite 
closely with our European counterparts on some specific issues 
because we do not see any particularly focused on the homeland, 
but we have to assume that any threat against the West can also 
implicate the homeland.
    Chairman Lieberman. I appreciate that response and the fact 
that the three of you are on top of it.
    Let me go to one of the conclusions that we have all drawn, 
which is that the pace of Islamist terrorist attacks, or 
attempted attacks against the United States in the last year, 
has gone up. The number is greater. And I hear at least two 
causes that I think explain that from your testimony. One is 
the increase in attempted attacks by foreign terrorist 
organizations, other than al-Qaeda, who were created for more 
local foreign purposes, al-Shabaab in Somalia, other groups 
related to problems in Kashmir or Pakistan. So that is one. The 
second is the increase in homegrown radicalization.
    Are those the two that explain this increase that we are 
seeing in attacks against the U.S. homeland or is there 
something more? Has there been a judgment made at the top of 
the al-Qaeda, for instance, that it is time to sort of build 
back in attacking the U.S. homeland?
    Maybe, Director Mueller, you should start first on that 
one.
    Mr. Mueller. Let me start, if I could then, and say that 
the third factor quite probably is the examples of Mumbai and 
Hasan in Fort Hood and the ability to undertake terrorist 
attacks with very few people, but launched pursuant to the 
ideology and the desire to expand jihadist extremism, and 
understanding that launching a larger, perhaps more devastating 
attack, is not worth the additional effort when you can get 
substantial coverage and impact with smaller attacks.
    Chairman Lieberman. Understood. So that a large 
sophisticated September 11, 2001, is always possible, but that 
for now, the direction of the enemy is on a smaller scale, more 
individual attacks, as they have seen nonetheless, even when 
they fail, as they did on Christmas Day and the Times Square, 
it unsettles our country and receives a lot of attention.
    So what about the question of why there are more Americans 
involved? Is this just the obvious, that the process of 
homegrown radicalization and the use of the Internet is growing 
greater, or is there something else happening here?
    Secretary Napolitano.
    Secretary Napolitano. Mr. Chairman, I think that we do not 
yet have a complete understanding of what would cause a person 
to become radicalized to the extent of violence, to the extent 
of traveling to the Federally Administered Tribal Areas to 
train, and then returning to the United States. But as Director 
Leiter said, we are looking at what is the continuum of 
activity, where the best place that we could possibly intervene 
is.
    What we are doing at the Department of Homeland Security is 
really working with the community policing strategy, and that 
is to say really educating local police departments, arming 
them with intelligence, products that we jointly develop so 
they can watch for tactics and trends to prevent one of those 
persons from being actually able to carry out an attack. So, we 
have really focused on acknowledging the phenomenon exists, and 
figure out what do we do from a law enforcement perspective to 
minimize the risk an attack can be successful.
    Chairman Lieberman. Director Leiter, you responded in your 
opening statement to Senator Collins' reference to the Kean-
Hamilton report. They said in their report, ``There remains no 
Federal Government agency or department specifically charged 
with identifying radicalization and interdicting the 
recruitment of U.S. citizens or residents for terrorism.''
    But I heard you to say in your opening statement that the 
National Counterterrorism Center is that agency. Am I right?
    Mr. Leiter. We are the organization responsible, in 
conjunction with the National Security Council, for helping to 
coordinate what different departments and agencies are doing. I 
think in terms of identifying people who are radicalized and 
the factors that go into that radicalization, our closest 
partners in that are the FBI and DHS. Director Mueller can 
address what they do, but the basic idea is the FBI is the 
investigative piece, DHS is working with State, local, tribal 
officials, private sector and awareness, and working with the 
communities. NCTC is trying to piece together the foreign 
perspective and the domestic perspective into one cohesive 
picture of where we see that radicalization.
    Chairman Lieberman. We have heard from leaders in the 
Muslim-American community that different Federal Government 
agencies have their own outreach efforts to the community, 
which at times do not appear to be closely coordinated. And 
obviously, this community--I will state for the record, we all 
know it--is overwhelming made up of patriotic, law-abiding 
Americans, but the problem is coming from a small group of 
people in that community who can cause our country terrible 
damage. And so in some sense, they are within the community the 
first line of defense in noticing potential trouble.
    Are we adequately coordinating our outreach to the Muslim-
American community and their cooperation with us in this 
counterterrorism effort?
    Mr. Mueller. Let me start, if I could, by saying that since 
September 11, 2001, we have 56 field offices, 400 resident 
agencies in the FBI. Since September 11, 2001, every one of 
those entities in the United States has been engaged in an 
outreach effort with the Muslim community, from the bottom all 
the way to the top. My message to the Muslim community is the 
worst thing that could happen to the Muslim community is 
another attack. We need your help.
    Chairman Lieberman. Right.
    Mr. Mueller. Law enforcement cannot do it itself. And 
through a variety of mechanisms, whether it be citizen 
academies or other mechanisms, we have to bring the community 
in so that they understand the FBI. We have been doing this 
since September 11, 2001.
    There are additional areas of activity that have grown over 
a period of time, and I do believe that the coordination is 
successful with NCTC. Inevitably, there will be particular 
areas where the coordination does not go as well as you would 
like, but I think generally it is good.
    The other thing to remember is that we also have the 
responsibility for investigating civil rights offenses, and we 
want to make certain that the Muslim community understands that 
whenever there is an offense that falls within that purview, 
that we are out there investigating that and making certain the 
persons responsible are brought to justice.
    So I do believe we have substantial outreach, have had it 
for a number of years, does not mean that it cannot be 
improved, but that it is moving in the right--I hate to say 
moving in the right direction, but it is contributing 
substantially and in coordination with the other partners.
    Chairman Lieberman. I think I should leave it at that 
because I am over my time.
    Secretary Napolitano. I was just going to add, Mr. 
Chairman, that if the comment is there is too much outreach, 
not too little, it seems to me we cannot do enough outreach in 
this setting.
    Chairman Lieberman. Yes, I agree. I mean, the comment was 
that it is not coordinated.
    Maybe I will come back to you, Director Leiter, on that on 
the next round. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to ask each of you a basic question. We have seen a 
dramatic spike in the number of attempted and successful 
attacks during the past year and a half. Do you believe this is 
an aberration or is this likely to continue?
    Madam Secretary, we will start with you.
    Secretary Napolitano. I think that caution would dictate 
that we assume it is not an aberration, that we are going to 
see increased diversification of groups, tactics, and targets, 
and that means we have to continue to work on keeping State and 
locals prepared and informed. It means information sharing is 
at a premium. It means we need to involve the entire U.S. 
citizenry. This is why we have campaigns like ``See something, 
say something.'' And, we must be very resilient should an 
attack actually succeed.
    Senator Collins. Director Mueller.
    Mr. Mueller. As the Secretary says, we have to assume it is 
not an aberration. I do think it is, in part, contingent on 
what happens overseas, whether it be in Yemen, Somalia, or 
Pakistan, and that the seriousness, the effectiveness of the 
threat will grow or be reduced in some part with our success 
overseas.
    Most of the individuals who have been radicalized in the 
United States have been radicalized by influences outside the 
United States as opposed to being radicalized by influence in 
the United States. And to the extent that we can address those 
radicalizing influences, whether it be in Yemen, Somalia, 
Pakistan, Afghanistan, or elsewhere, I also think it is 
important to reduce the level of the threat.
    Senator Collins. Director Leiter.
    Mr. Leiter. I would agree with Director Mueller that the 
outside influences are very important here. Right now, we do 
not see any great likelihood of those diminishing any time in 
the future, nor do we see any indicators within the United 
States of a significant drop-off in radicalization.
    What I would say is the silver lining, I hope, that through 
greater awareness and engagement with these communities of the 
risks to their children traveling overseas to Somalia or Yemen, 
that the community engagement will over time reduce the 
likelihood of radicalization.
    Senator Collins. Director Mueller, several years ago, I 
held hearings on terrorism financing, and I recognize that the 
Department of Treasury, as well as the FBI, play the critical 
lead role in trying to block money from flowing from this 
country to terrorist groups overseas. A means of funneling that 
money is often the hawalas, and indeed, there was a recent 
indictment which indicated that there was a money transfer to 
the Times Square attempted attacker.
    How big a problem do you believe it is with funds from 
groups, such as Somalian immigrants in this country, going to 
terrorist groups like al-Shabaab?
    Mr. Mueller. I would say it is a significant problem, and 
it is a difficult problem to know fully how extensive it is, 
principally, because while we can often track funds from the 
United States, many of those funds are going overseas for 
legitimate purposes to support families and the home countries 
of the individuals sending the funds, and the inability of our 
investigations to identify the funding stream all the way to 
the pocket of the terrorists.
    It is a substantial problem, difficult to address. We have 
a number of ways of doing that, whether it be through looking 
at it through technology, the money transfers, or most 
particularly, the use of sources but there is a substantial 
problem with challenges to being successful in turning it off.
    Senator Collins. Should there be greater regulation of 
hawalas?
    Mr. Mueller. I would have to look at exactly what that 
regulation might be, but, yes, additional recordkeeping that 
gives us insight into the purpose of the transfers is always 
beneficial to our abilities to stop that stream of funding.
    Senator Collins. Mr. Leiter, in the wake of the Christmas 
Day attempted bombing, we held hearings at which your deputy, 
Mr. Travers, talked about the problems with linking databases, 
and he testified that had information been linked with the 
cable from the embassy in Nigeria with information in other 
databases, it would have supported a watchlisting nomination 
that would have stopped Abdulmutallab from flying into the 
United States. He went on to say that the government needs to 
improve its ability to piece together this partial information 
that is in various databases.
    What was disturbing to me, however, is Mr. Travers went on 
to say that there were policy limitations and legal limitations 
that must be addressed to enable effective information sharing. 
We have asked, over and over and over again, what are those 
policy and legal limitations because we want to address them. 
We want this information sharing, which is so vital, to be 
improved, so that the vital information can be linked while 
protecting, obviously, the privacy and civil liberty rights. 
And we have heard from technology experts that a federated 
search capability across multiple agencies and platforms is 
possible, that this is not a technical problem.
    So what is the problem? What are the legal and policy 
constraints?
    Mr. Leiter. Well, Senator Collins, I am happy to come up 
and spend time with the Committee and walk through them in 
great detail. I will tell you that, given the multitude of 
databases that exist, hundreds of databases that might be 
relevant to some of these challenges, there are a multitude of 
challenges. I will give you some specific examples.
    There are some issues that I have written a letter to the 
Senate Intelligence Committee about regarding the Freedom of 
Information Act (FOIA) and ways in which FOIA, as currently 
structured, reduce the incentive for the Central Intelligence 
Agency (CIA) to provide NCTC certain data. As Secretary 
Napolitano well knows, there are significant policy issues with 
the European Union and their provision of passenger name record 
information to the U.S. Government and retention periods, which 
can inhibit effective use of this data in counterterrorism 
operations investigations. Similarly, as I know you are well 
aware, the complexities of the Foreign Intelligence 
Surveillance Act (FISA) and the various amendments to FISA have 
significant limitations on how--and I need to stress, some very 
appropriate limitations--U.S. persons' information can be 
handled.
    Each of these are examples as to how, although we can have 
a federated search, it is sometimes difficult to fully 
integrate databases in a way that the computers connect 
information prior to an individual having to dive into a 
specific database and find that information.
    Senator Collins. Thank you, Mr. Chairman. I think this is 
an issue that we do need to work further on. We have talked 
about it for months, but we have never received the specifics 
from the Administration.
    Chairman Lieberman. I absolutely agree with you, Senator 
Collins, and we will do that.
    I just want to pick up on one comment, the response to 
Senator Collins' questions about the threat to our homeland. 
And you said that the extent of the threat really depends a lot 
on what is happening in places far away, like Yemen, Somalia, 
or Pakistan. And it reminds us of what I suppose is obvious to 
all of you, which is that this war with Islamist extremism is 
really a world war, so that what happens far away really 
affects our security here at home. And therefore, the ongoing 
U.S. and allied efforts in countries like Yemen, Somalia, and 
Pakistan against extremists groups is critically important to 
the work that you are doing here at home.
    In order of appearance among the Senators present, Senator 
McCain is next.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Mr. Chairman, thank you.
    Mr. Leiter, if the United States captures a terrorist 
tomorrow outside the U.S., Iraq, or Afghanistan, where would we 
detain that person for purposes of interrogation?
    Mr. Leiter. Senator, I think it would obviously depend, in 
part, on the circumstances of the capture, but I believe that 
he can be detained by U.S. military forces or potentially 
detained by the country in which he was captured.
    Senator McCain. He would be detained where?
    Mr. Leiter. Or potentially he could be turned over to the 
country in which he was captured or his home country.
    Senator McCain. A terrorist that is apprehended in 
attempting to inflict a act against the United States of 
America would be turned over to the host country?
    Mr. Leiter. Senator, as I said, it depends on many factors. 
He could be detained--I am not an expert on law of war and 
Department of Defense (DOD) authorities, but obviously, if he 
were captured by the U.S. military, there is an ability to 
detain there, or, in some circumstances, in host nations or the 
individual's host country if they were a willing partner with 
the United States.
    Senator McCain. Well, maybe you can look into it and give 
us a better answer. That is not a good answer.
    Mr. Leiter, recently, Secretary Hillary Rodham Clinton said 
that the situation and violence in Mexico is now comparable to 
that of Colombia in the 1980s.
    Do you agree with that assessment?
    Mr. Leiter. Senator, I would actually have to defer to both 
Director Mueller and Secretary Napolitano, who are much closer 
to the Mexico issue.
    Senator McCain. Let me ask then both of them. Mr. Mueller.
    Mr. Mueller. Senator, I am in no position to equate what 
happened in Colombia 5 or 6 years ago to what is happening in 
Mexico now.
    Senator McCain. You have no ability to do that?
    Mr. Mueller. Well, I am somewhat familiar with what 
happened in Colombia and what has changed in Colombia since 
then, but the structure of the feuding factions in Colombia is 
different than the types of feuding factions that you have in 
Mexico today. You had the Revolutionary Armed Forces of 
Columbia (FARC) that was involved in narcotics trafficking with 
an infrastructure that I would say is far different from the 
colliding cartels today.
    So I am not certain how you would compare what happened 5, 
6, or 7 years ago in Colombia with what is happening in Mexico 
today, although I do believe that some of the mechanisms that 
contributed to the successes in Colombia should be adopted by 
Mexico.
    Senator McCain. You do agree that there has been a dramatic 
increase in violence in Mexico in all areas, ranging from 
assassination and kidnapping of journalists, and murder of 72 
immigrants from other countries, including 14 women.
    Would you agree that the violence in Mexico has 
dramatically escalated in, say, the last 3 or 4 years?
    Mr. Mueller. Yes.
    Senator McCain. And would you say that increases the threat 
of national security on the other side of our border?
    Mr. Mueller. Yes.
    Senator McCain. Secretary Napolitano.
    Secretary Napolitano. I think that is right, and 
particularly in some of the states of northern Mexico, 
Chihuahua and Tamaulipas, for example, homicide rates are up 
dramatically as are attacks on government. And, of course, we 
saw the paper in Juarez just a few days ago on a front page 
editorial saying what do we need to do.
    Senator McCain. So wouldn't that lead one to the concern 
that with still hundreds of thousands of people crossing our 
border illegally, that a terrorist act could be committed on 
the United States of America since there have been threats by 
the cartels alone to do so?
    Secretary Napolitano. That goes to all of the efforts that 
are going on with Mexico in Mexico and along the Southwest 
Border. But to the extent, yes, we see groups in Mexico, the 
large drug cartels.
    Now, the plain fact of the matter is that illegal 
immigration, while still too high, is down significantly. It is 
the plain fact that drug seizures, cash seizures, and gun 
seizures are up significantly. It is the plain fact that there 
is more manpower and more technology at the border than ever 
before and more is going to the border. But it is also true 
that the situation in Mexico is very serious and we have seen 
it escalate in the past several years.
    Senator McCain. And does that mean that the situation in 
Mexico has worsened over the last couple of years or improved?
    Secretary Napolitano. I think in terms of the violent crime 
in Mexico, it has worsened.
    Senator McCain. Secretary Napolitano, there is an old 
saying about, in your duties, on a policy, it is not where you 
stand, it is where you sit. In 2008, you sent a letter to 
Secretary Chertoff saying, ``arguing for more help on the 
border.'' You said then, ``Human and drug smuggling rings 
continue to thrive in Arizona, crossing our border and using 
our elite cities as major hubs to transport crossers throughout 
the country. We wait for real progress on the virtual fence, 
and we know there has not been progress on the virtual fence. 
Border communities in Arizona will continue to be strained by 
the millions of dollars in costs they must absorb to the state 
of border security.''
    Then, of course, just last week you said, ``He is a 
governor. He always has the ability, in a way, to bring up 
National Guard if he is willing to pay for them. That is always 
an option available to a governor.'' At the same time, suing 
the State of Arizona for trying to get its border secure by 
enacting legislation to try to address the issue of illegal 
immigrants in our State, which is a Federal responsibility, all 
that in the backdrop of, apparently, that there will be new 
policy by Immigration and Customs Enforcement (ICE) according 
to a Fox News report, ``ICE proposes new policy that would let 
illegal immigrants go free.''
    According to a news report and other news reports, proposed 
ICE changes in ICE policy state, ``Immigration officers should 
not issue detainers against an alien charged only with a 
traffic-related misdemeanor unless or until the alien is 
convicted. The ICE proposal would prevent law enforcement 
officers from reporting illegal immigrants identified during 
the course of a traffic-related stop or arrest to Federal 
authorities unless they are a convicted felon, they are wanted 
for a felony, they are part of an existing investigation, they 
were involved in an accident involving drugs or alcohol, or 
they fled the scene.'' Apparently, the draft proposal was 
posted on ICE's Web site last month.
    Could you testify as to what in the world is going on here?
    Secretary Napolitano. Yes, sure can.
    Senator McCain. Good.
    Secretary Napolitano. And I would be happy to. First of 
all, where I sit has not changed my position.
    Senator McCain. Clearly, you have.
    Secretary Napolitano. No, I disagree, Senator.
    But what we have done in the past 2 years is put more 
resources at the Southwest Border than ever before, both in 
terms of Federal and providing resources to the States. I am 
not going to get into the tit for tat with Governor Rick Perry 
of Texas. I think that is not worthy of this Committee.
    ICE has put out guidance that we are going to focus on 
criminal aliens, and, in fact, we have removed, and will be 
removing, more criminal aliens from this country than ever 
before. And I think that is the right policy, criminal aliens, 
felony fugitives, those in our country illegally also 
endangering public safety. However, ICE has not said in any 
formal policy that others will not be detained.
    So I would be happy to respond in writing. I think the ICE 
comments that you have just made are misconstrued, 
misinterpreted, and just wrong. I would also be happy to put in 
the hearing record, the entire record of DHS on the border.\1\
---------------------------------------------------------------------------
    \1\ The Document for the Record from Secretary Napolitano to 
Senator McCain's request appears in the Appendix on page 59.
---------------------------------------------------------------------------
    Senator McCain. So it is not true that the ICE has proposed 
that it would enact a policy that would prevent law enforcement 
officers from reporting illegal immigrants identified during 
the course of a traffic-related stop or arrest to Federal 
authorities unless they are a convicted felon, wanted for a 
felony, etc.? That is not true?
    Secretary Napolitano. No. ICE has issued guidance to 
prioritize those who are convicted felons, those who have 
committed violent crimes, those who are felony fugitives, and 
those who are gang members. And our removals of those 
individuals are at record numbers.
    Senator McCain. Would that prevent law enforcement officers 
from reporting illegal immigrants identified during the course 
of a traffic-related stop?
    Secretary Napolitano. No.
    Senator McCain. It would not?
    Sectary Napolitano. No.
    Senator McCain. That proposal, as posted on the Web site of 
ICE, is not true?
    Secretary Napolitano. That is not the policy of ICE.
    Senator McCain. I thank you. I know that you are very busy, 
but from my visits to the southern part of our State, they do 
not see this dramatic improvement, Madam Secretary. In fact, 
they are more worried than they have ever been. They see 
continued home invasions. They see continued requirement for 
our government to put up signs that say ``warning'' to our 
citizens that they are in a ``drug smuggling area and human 
smuggling area.'' They do not have the same security that 
people do in other parts of our country. Our wildlife refuges 
continue to be trashed. The treatment and horrible abuses that 
are committed by these coyotes and human and drug smugglers, 
who are basically the same now--at least in the view of the 
citizens I represent--they have not actually seen any 
improvement. They have seen conditions worsen, and they live 
there.
    Secretary Napolitano. Senator, again, I would be happy to 
come and brief you personally, because we are in constant 
contact with those very citizens, at least in law enforcement. 
And all I can do is say, look, I measure what we are doing by 
the results and by the numbers, and what should be going up is 
going up, what should be going down is going down. However, the 
situation in Mexico is very serious, and it does demand our 
utmost attention. You are correct about that.
    Senator McCain. Could I just finally respond then? Well, 
let us get Sheriff Larry Dever and the sheriffs that Secretary 
Napolitano says she is in contact with, and they will tell you, 
they are the law enforcement people. They are down there on the 
front line, and they will tell you, they have not seen 
improvement.
    Secretary Napolitano. Well, we will add Sheriff Tony 
Estrada, Sheriff Ralph Ogden, and some of the other sheriffs, 
as well.
    Senator McCain. Would be more than happy to. They are on 
the front lines and they are the citizens that----
    Secretary Napolitano. Let us get them all up here.
    Senator McCain. Things are not improving at all, Secretary 
Napolitano.
    Chairman Lieberman. Thank you both.
    Let us go to Senator Brown, who can bring some sheriffs 
from Massachusetts. [Laughter.]

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman.
    Just as a follow-up to Senator McCain, do you consider 
people who cross our border without proper authority or 
paperwork to be here illegally?
    Secretary Napolitano. Yes.
    Senator Brown. And if that is the case, especially in 
Arizona and surrounding areas, what is your policy and the 
Administration's policy with regard to when you, in fact, stop 
somebody, whether it is through a traffic stop or some other 
means? What actually happens to those individuals? What is your 
policy and recommendation and the Administration's?
    Secretary Napolitano. Well, it depends on the circumstances 
of the stop and it depends on the----
    Senator Brown. Well, assuming the stop is illegal and they 
are stopped properly----
    Secretary Napolitano. Correct.
    Senator Brown [continuing]. And all that legal stuff which 
we all know. But what happens? What is the position? Are they 
then subjected to being deported or does it depend on whether 
they are a violent offender?
    Secretary Napolitano. No. They will be recorded. They will 
be put into the immigration system. They may or may not be 
detained, which is----
    Senator Brown. Well, that is where I am a little confused--
may or may not. They are either here illegally or they are not. 
If they are here illegally, are they supposed to be detained or 
are they not? I mean, what are the factors?
    Secretary Napolitano. Well, it depends on, quite frankly, 
the seriousness of the offender and the availability of bed 
space. And this is a real problem along the border. We do not 
have enough beds, as senators who are from the border 
recognize, and we have testified before. There are not enough 
beds to detain everybody who crosses the border, and so what 
happens is some of them who are here illegally--and that is 
their offense; they have crossed illegally, but they have 
committed no other crime--they will be put into an 
administrative procedure. If, however, if somebody has crossed 
illegally and they have a felony record, or they are a gang 
member, they are somebody who is a fugitive, then we will be 
able to seek detention and removal.
    Senator Brown. And is there a plan to ultimately secure the 
border, as Senator McCain, Senator Kyl, and others have tried? 
I remember when I was down there visiting, I was surprised. One 
section of the country that has a double fence and is secure, 
and another part of the State is somewhat porous.
    Is there a plan? Do you have a plan? I know when you were 
the governor you had the very same concerns.
    Secretary Napolitano. Those concerns have been the concerns 
that I have been acting on as the Secretary, and we have built 
a fence. I think the Congress has appropriated enough money for 
700 miles of fence, roughly, and we have built all but a few 
miles. But you cannot just rely on a fence. You must have 
technology. You must have manpower. And as I told Senator 
McCain, there is more of that at the border than ever before 
and more is on the way.
    Senator Brown. Great. Thank you.
    Further, let me start out by just saying, I appreciate all 
the efforts of all of you and all of our law enforcement and 
other officials trying to battle daily to try to keep our 
country safe, and aside from our economic problems that we are 
having, our national security and international security is the 
No. 1 threat that faces us. And, quite frankly, if we do not 
get our economy squared away, we are going to have some 
difficulty, I feel, dealing with a lot of the national security 
obligations that we have not only locally but throughout the 
world in helping our international friends.
    Director Leiter, 8 months ago, after the Christmas Day 
bombing, you announced the creation of pursuit teams who were 
charged with chasing leads and connecting the dots by freeing 
up some of your analysts.
    Have you seen any benefits? Are these teams in place? Are 
there any benefits, in fact, because of that, that you have 
seen, and have we caught any intelligence links that we might 
otherwise have missed?
    Mr. Leiter. Senator, they are in place. There are more than 
50 analysts working on them. I would also note that something 
we added since that last testimony, some of them are merged 
components with FBI investigative groups to further increase 
the information sharing. We have seen benefit. We have FBI 
cases that have been opened because of pursuit group leads that 
otherwise would not have been uncovered. We have enhanced 
numerous watchlisting records that otherwise would not have 
been enhanced.
    So I think we have done a better job since Christmas Day of 
identifying new cases, domestically and overseas, and enhancing 
our understanding of individuals who may pose a threat to the 
United States.
    Senator Brown. Would you suggest that DHS and FBI would 
benefit from adopting that model as well or are they?
    Mr. Leiter. I think for the FBI, again, the jointness of 
the groups, from my perspective, that is the FBI doing it with 
us, and I think that is the optimal way to do it. We are also 
co-locating members from DHS operational intelligence 
components to enhance the transfer of information as we uncover 
something immediately into Secretary Napolitano's area of 
responsibility, setting screening standards and the like.
    Senator Brown. And could you give me an assessment of what 
you feel Hezbollah's terrorist capabilities are as to how they 
affect the United States?
    Mr. Leiter. Hezbollah remains a highly effective terrorist 
and political organization, with quite incredible capability, 
both within the Levant, but also elsewhere. They have a global 
network of individuals, and within the Levant, they have highly 
sophisticated weaponry that they, in the past, used against 
Israel.
    The big question mark for us has always been not their 
capability but their intent. Currently, we do not assess there 
to be a clear intent to attack the United States, but should 
that intent change, they undoubtedly have the capability to 
launch attacks against the United States and the West on a 
relatively global scale.
    Senator Brown. Now, I know Iran is obviously the chief 
sponsor of their money and weaponry.
    Mr. Leiter. Yes.
    Senator Brown. That is still the case?
    Mr. Leiter. That is still the case.
    Senator Brown. Do you think if there is an escalation 
between Iran and Israel, that we will see more of a threat here 
in the United States?
    Mr. Leiter. Yes.
    Senator Brown. And then to shift gears a little bit, how 
have you noticed that the coordination between the State and 
local intelligence shops, how closely does the NCTC work with, 
for example, the Boston Police Department, the New York Police 
Department, and those local authorities, because I know the 
Secretary said it needs to be a local effort, almost like a 
neighborhood watch on a statewide basis.
    What have your experiences been?
    Mr. Leiter. First and foremost, everything we do with State 
and locals is really done in conjunction or through DHS and the 
FBI. We think that is critical because, honestly, what we have 
heard from State and local is that they do not want more places 
to connect in the U.S. Government. They want to understand who 
is doing what and having another organization deal with them 
directly is not what they seek.
    What we try to do is take that national-level intelligence 
and work with DHS and the FBI to get it down to a level where 
it is actually useful to State and local officials either 
through JTTFs or through the fusion centers. I would simply 
note, though, Boston and New York are two organizations that we 
have always had a very close relationship with. I have a New 
York City detective who is an analyst in our organization, and 
I also have a Boston Police Department lieutenant who leads an 
organization that is led by DHS but is within NCTC to provide 
information back to State and local organizations. And, in 
fact, in conjunction with the FBI and DHS several months back, 
we ran an exercise on information sharing and terrorist threats 
with the City of Boston.
    Senator Brown. And if I could just, Mr. Chairman, follow up 
with the remaining two folks that are testifying with that same 
question. How are you noticing the relationship between the 
State and local governments? And also, I would just like to 
convey, when we do know of an issue that is happening in our 
State, it is important, I think, to let us know--the senators 
or congressman that are dealing with it--so we can work with 
you in concert, with the public relations to get the word out 
in a respectful, responsible manner.
    So if you two could comment on that same question, which 
is, between the State and local intelligence shops, how do they 
work with you?
    Then I would be done, Mr. Chairman, thank you.
    Mr. Mueller. We have a very successful Joint Terrorism Task 
Force in Massachusetts. We also have branches in States to the 
north in which the Boston Police Department, State police, 
other police departments and organizations contribute. The 
persons who work on the Joint Terrorism Task Forces are given 
top secret clearances. They have access to everything we have. 
And whenever there is a threat, the information running the 
threat is distributed to those who will be responsible for that 
threat. And if it is at the secret or top secret level, we get 
it out so that it could be more widely disseminated.
    But I ask you to go and sit down and talk with the Joint 
Terrorism Task Force and perhaps be briefed by not only what 
the composition of the task force is but what they are 
currently looking at in that area.
    Senator Brown. I have, and I will again. Thank you.
    Secretary Napolitano. Likewise, Senator, fusion centers are 
somewhat different than JTTFs. They have a different function. 
They complement each other, and we would be happy to get you 
briefed up on what is happening in Massachusetts.
    Senator Brown. That would be wonderful. Thank you.
    Chairman Lieberman. Thank you, Senator Brown. Senator 
Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Mr. Chairman, and thank 
you for holding these hearings as you have so consistently.
    During a similar hearing last year, I asked the question 
whether or not someone who is on local law enforcement who 
arrests somebody for suspicion of commission of a crime could 
call a single place or find out from a single location whether 
or not there is any information that this person may be engaged 
in terrorist activities.
    Secretary Napolitano, I think at that time you testified 
that the ability to fuse that information and get it available 
to the officer on the street was a work in progress. And I am 
wondering whether or not progress has been made on that in the 
last year.
    Secretary Napolitano. Yes, I think significant progress has 
been made, and if there were arrests on that basis and the 
person were to run a name and any other identifiers through 
either the JTTF or the fusion center, there would be the 
ability to cross-check against a number of databases.
    Senator Levin. And how many databases are not included in 
that information and how many are? Is it the majority of 
sources of information, two-thirds, three-quarters, and are we 
improving that number?
    Secretary Napolitano. We are definitely improving that 
number. There are a lot of databases, and I think the search 
engines have been improved as well. I know at DHS, for example, 
there are at least 47 different databases against which such 
information could be run. It is easier to say how many as 
opposed to what is out there in other agencies that we do not 
yet have.
    Senator Levin. Well, how many are you seeking that you have 
not yet gotten?
    Secretary Napolitano. Let me provide you with that 
information after this hearing, Senator.
    Senator Levin. Would you do that for the record?
    Secretary Napolitano. Absolutely.
    Senator Levin. The 50 states now form nearly two million 
corporations and limited liability companies each year without 
knowing who actually owns them. The failure to collect 
ownership information invites wrongdoers to misuse U.S. 
companies for terrorism, money laundering, tax evasion, or 
other crimes. It is a subject which this Committee has been 
examining for a number of years now.
    Just one example, of how corporations are being misused by 
terrorists. A man named Victor Bout is a Russian arms dealer 
who has been indicted in the United States for the following: 
Conspiracy to kill U.S. nationals, to acquire and use anti-
aircraft missiles, and to provide material support to terrorist 
organizations. He carried out his activities in part by using 
shell companies, including a number of them, about 10, right 
here in the United States. We are trying to extradite Mr. Bout 
right now from Thailand.
    In a Government Accountability Office (GAO) report 4 years 
ago, the FBI was quoted as saying that U.S. shell companies 
with hidden owners had been used to launder as much as $36 
billion from the former Soviet Union and were involved in most 
of over 100 stock market manipulation cases, and many other 
reports have followed since them.
    Corporations have been misused for drug trafficking, 
financial crime and more. Yet we continue to have a corporation 
formation regime in this country that does not require people 
forming corporations to provide information about the real 
owners. You have to provide more information to a State in 
order to get a driver's license in this country than to form a 
new corporation. We properly criticize tax havens who create 
these shell corporations as mechanisms which frustrate law 
enforcement. And yet, we ourselves have not taken the action 
that is so important to law enforcement, as law enforcement has 
testified here consistently.
    Secretary Napolitano, your predecessor, Michael Chertoff, 
testified to this Committee about law enforcement problems 
caused by U.S. companies with hidden owners. Here is what he 
said. ``In countless investigations where the criminal targets 
utilize shell corporations, the lack of law enforcement's 
ability to gain access to true beneficial ownership information 
slows, confuses or impedes the efforts of investigators to 
follow criminal proceeds. This is the case in financial fraud, 
terrorist financing, and money laundering investigations.'' And 
he went on, ``It is imperative that states maintain beneficial 
ownership information while the company is active and to have a 
set time frame for preserving those records. By maintaining 
records not only of the initial beneficial owner but of the 
subsequent beneficial owners, the states will provide law 
enforcement, the tools necessary, to clearly identify the 
individuals who utilize the company at any given period of time 
during the company's history.''
    So let me start with you, Director Mueller. Do you agree 
with Mr. Chertoff's assessment that it is imperative that 
states obtain beneficial ownership information?
    Mr. Mueller. I certainly agree with Mr. Chertoff's 
assessment of the problem.
    Senator Levin. And you believe that the lack of beneficial 
ownership information for corporations creates a problem for 
law enforcement?
    Mr. Mueller. Yes.
    Senator Levin. Secretary Napolitano, would you give your 
answer to those same two questions?
    Secretary Napolitano. I would concur on both, yes.
    Senator Levin. Now, we have a bill, as I think both of you 
know, S. 569 that I introduced with Senators Grassley, 
McCaskill, and I believe others. It is a bipartisan bill to 
give law enforcement access to beneficial ownership information 
and to require states to obtain and maintain that information. 
We have been working with the Administration and with law 
enforcement to improve and strengthen that bill.
    Let me ask you both, do your agencies support enacting 
legislation to require states to obtain beneficial ownership 
information for U.S. corporations? Secretary Napolitano.
    Secretary Napolitano. Senator Levin, I think we may have 
actually seen some draft language on that bill, but, yes, we 
support that concept.
    Mr. Mueller. And I would have to defer to the Department of 
Justice and whatever views that are being put together on that 
particular legislation.
    Senator Levin. Do you know what views they have expressed 
on it?
    Mr. Mueller. I do not.
    Senator Levin. Could you check it out?
    Mr. Mueller. Yes, sir.
    Senator Levin. I think it is important. Well, I know that 
they have expressed support, and frankly, I am surprised you do 
not know that they have expressed support. But in any event, 
you are the FBI and you are the law enforcement agency that 
would be helped by this information, and I would hope you would 
weigh in with the Department of Justice. They have indicated 
support, but to translate that support into real action so that 
we can get this done is something else. And your help would be 
very much valued, and I hope you would take a look at that.
    Mr. Mueller. I understand, Senator.
    Senator Levin. Will you do that?
    Mr. Mueller. Yes, sir.
    Senator Levin. I think my time is up.
    Chairman Lieberman. Thanks, Senator Levin. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this hearing.
    I would also like to thank our witnesses for being here 
today.
    In the 9 years since September 11, 2001, the United States 
has become better prepared to confront a wide variety of 
terrorist threats. However, the Times Square bomb plot and also 
the plot to bring down an airliner traveling to Detroit remind 
us that we must stay vigilant. In particular, the United States 
must confront the threat of homegrown terrorist attacks.
    An ongoing concern of mine, that I'd like to address to the 
panel, has been about how well the United States communicates 
its core values, national identity, and policies to people 
around the world. How are your agencies working with the 
Department of State and other agencies to ensure that our 
public diplomacy offers a compelling narrative and an array of 
programs that challenge the messages offered by al-Qaeda and 
its affiliates?
    Secretary Napolitano. We work very closely, Senator, across 
the interagency and internationally. I think one of the things 
that has surprised me most, as the Secretary of Homeland 
Security, is how much international reach there needs to be to 
give full effectiveness to the job. And so we work, as I 
mentioned earlier, with the International Civil Aviation 
Organization (ICAO) on international aviation standards. We 
work with the G-6. We work with the European Union on the 
exchange of information. We work very closely with Canada and 
Mexico, our two neighbors.
    So there is a huge amount of interaction at the 
international level but all designed to minimize the risk that 
a terrorist could either enter the United States or be plotting 
somewhere else to injure U.S. interests.
    Senator Akaka. Director Mueller.
    Mr. Mueller. Senator, we have realized for any number of 
years, certainly before my time, that our success is in large 
part dependent on working with our counterparts overseas. We 
have over 60 legal attache offices now in the embassies around 
the world, which we use as a liaison bridge to our 
counterparts. We have had since the 1970s the national academy 
in which we bring in State and local law enforcement for a 10-
week period for training. We have for many years included our 
foreign counterparts, whether they be from Iraq, Pakistan, or 
Afghanistan, as part of those classes in an effort to educate 
persons as to what the FBI does but also how the FBI does it 
and what we do not do. And in those relatively small ways, but 
I think important ways, we have developed persons that provide 
the relationships that are necessary to operate in a global 
environment.
    Senator Akaka. Director Leiter.
    Mr. Leiter. Senator, one of our closest partners is the 
Under Secretary for Public Diplomacy at the State Department, 
Judith McHale. We work quite closely with her and also, of 
course, the White House to ensure that U.S. messaging and 
outreach that occurs overseas is consistent with the same 
message we are also trying to convey to our Muslim-American 
communities.
    We really do not think all that much of a foreign audience 
and domestic audience. In many cases, these audiences are one. 
In the age of the Internet, that information is moving across 
boundaries far faster than we can sometimes keep up. So we have 
worked closely with the White House. We are working with them 
on follow-up from the President's speech in Cairo and also 
Istanbul to make sure that the programs follow up from those 
pledges that the President made. And again, we work quite 
closely with the State Department to ensure that our diaspora 
communities are well connected with their communities in their 
home countries to convey American values and the experience of 
American Muslims, which are often skewed by al-Qaeda's 
propaganda.
    Senator Akaka. Thank you.
    At this Committee's hearing on the failed plot to bring 
down an airliner traveling to Detroit, a former Director of 
National Intelligence, Dennis Blair, testified that the Privacy 
and Civil Liberties Oversight Board would provide a valuable 
service. To date, it is not in place. As you know, this Board 
was created by the 2004 Intelligence Reform Act to protect 
Americans' privacy and civil liberties.
    What is the status of this Board being formed and how do 
government-wide counterterrorism efforts currently incorporate 
privacy and civil liberty protections?
    Secretary Napolitano.
    Secretary Napolitano. Senator Akaka, I think the membership 
of that board is currently being looked at by the White House, 
but I would share with you that we have within the Department 
of Homeland Security, an Office of Privacy. It is fully 
staffed, and they are fully incorporated in our policy 
decisionmaking, not as an afterthought, but at the outset to 
make sure that we are taking those values into account.
    Senator Akaka. Director Mueller.
    Mr. Mueller. We have both internally but also through the 
Department of Justice individuals that look at our undertakings 
from the perspective of assuring the sanctity of privacy and 
civil liberties.
    Senator Akaka. Director Leiter.
    Mr. Leiter. Senator, we have a similar structure. We have a 
civil liberties protection officer who is involved not after 
the fact but during the construction of policies and 
operations. In addition, we have an inspector general within 
the Director of National Intelligence. And finally, the 
President's Intelligence Advisory Board also does reviews of 
our work often relating to civil liberties.
    Senator Akaka. If I may, Mr. Chairman, just ask this final 
question.
    I have always been interested in language skills. How are 
your agencies coordinating to ensure that our language skills 
for homeland security and intelligence meet the needs of our 
counterterrorism mission?
    Secretary Napolitano. Senator, we are constantly looking to 
hire individuals with a variety of language skills. It is a 
high demand area, and I would hope that over time our 
universities will produce even more. But we do that primarily 
in the hiring process--identify those areas where we need more 
language expertise, particularly for intelligence and analysis, 
and we go and recruit.
    Senator Akaka. Thank you. Director Mueller.
    Mr. Mueller. To a certain extent, we recruit from the same 
cadre of individuals. There are too few with the particular 
languages that we need. I know in the wake of the 1950s and 
during the Cold War, there were governmental efforts to 
encourage development of language capabilities. I have seen, I 
think, in the last 2 or 3 years emphasis in universities and 
around the country on languages as important, whether it be 
Arabic or Chinese, just to name two off the top of my head. And 
so I think that the pool is growing but not growing as fast as 
we need it to.
    Senator Akaka. Thank you. Director Leiter.
    Mr. Leiter. I would echo my colleagues' points and simply 
add that it remains a challenge, especially in hard-to-find 
languages. I think we have done a better job over the past 
several years of being more flexible in providing resources 
from one government entity to another during times of crises to 
cover critical areas. That being said, we absolutely need them 
not just for the language but for the cultural literacy, which 
is often associated with understanding a foreign language.
    Senator Akaka. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thank you, Senator Akaka.
    We will do another round and move as quickly as we can.
    Director Leiter and others have responded in testifying on 
what lessons we learned from the Christmas Day bombing attempt 
and what we are doing to implement those lessons. I want to 
focus the three of you on the Times Square bombing and ask you 
to do a similar sort of post-event analysis of how did Shahzad 
break through and what lessons did we learn. What have we 
changed, to the extent you can say in open session, since that 
attempt?
    Madam Secretary, you want to begin?
    Secretary Napolitano. Yes, Mr. Chairman. And we had a belt-
and-suspenders approach really to finding Shahzad. It involved 
both the Transportation Security Administration (TSA) and the 
Customs and Border Protection (CBP). CBP ultimately was able to 
pull him off the plane. To prevent him from getting on the 
plane, however, we have now made sure that we have converted 
all the watchlist vetting from the airlines themselves. We have 
accelerated the cut-over so that TSA actually does that 
vetting.
    Chairman Lieberman. How about before? In other words, I 
mean, obviously, you can build on that, but is there anything 
that we think we should have done or could have done to have 
stopped him from actually getting--put that car in Times Square 
with the bombs in it?
    Mr. Mueller. I think there are areas that we subsequently 
learned about in the debriefing of Shahzad and others that have 
enabled us to look at certain investigative techniques and 
tools and the like, but they are better discussed in closed 
session.
    Chairman Lieberman. Director Leiter.
    Mr. Leiter. Senator, at a very broad level for the same 
reasons as Director Mueller noted, I will just give you two 
areas of successes and challenges. On the success front, as 
Senator Brown asked before, pursuit worked. Pursuit in 
conjunction with DHS and the FBI, I believe, helped accelerate 
the investigation, so that sort of activity. And not just that 
investigation but making sure we did not have other things 
going on, so pursuit worked in that context.
    Second, and we cannot talk about these in open session, but 
much of what DHS and FBI does on a preventative side, I think 
increased the likelihood that his bomb-making skills would lead 
to failure. There were things in place that made it less likely 
that the IED would be effective.
    Chairman Lieberman. That is very interesting and 
encouraging to hear.
    Mr. Leiter. On the challenges of even when we know someone 
is there and traveling back and forth to Pakistan, how far can 
investigations go on so many individuals who have similar 
profiles. That is an ongoing challenge.
    Chairman Lieberman. The profile of just going back and 
forth from the United States to Pakistan?
    Mr. Leiter. Exactly.
    Chairman Lieberman. Obviously, we have a lot of Pakistani-
Americans who are going back to see their families.
    Mr. Leiter. And respecting individuals' civil liberties, 
what kind of investigative steps you want to take in that 
scenario? And I think that continues to be a challenge for us 
and one that, obviously, you are well aware of.
    Chairman Lieberman. Let me go back to the coordination of 
what I would call the counter-homegrown radicalization effort. 
I just want to be clear about this because this is really 
important now, based on the statistics we see, with more and 
more Americans being radicalized over the Internet and through 
other influences, still personal influences on them.
    Do you feel that you have enough authority and resources at 
NCTC to effectively coordinate across the Federal Government 
the counter-radicalization effort, Mr. Leiter?
    Mr. Leiter. I think as a government bureaucrat, my answer 
to those are always supposed to be no. But I do not want to go 
down that easy path.
    Chairman Lieberman. But it is clear to you that your 
authority is recognized that as across the government. I know 
everybody always would like more resources. I want to just be 
clear that in the Federal Government, when people ask who is in 
charge of trying to run a counteroffensive to homegrown 
radicalization that they say it is the director of the NCTC.
    Mr. Leiter. I think saying ``in charge'' would probably be 
too strong a term. Who is responsible for coordinating across 
multiple departments in conjunction with the National Security 
Council or the NCTC?
    I do think your prior question to Secretary Napolitano and 
Director Mueller about are there ways to improve outreach 
coordination----
    Chairman Lieberman. Yes.
    Mr. Leiter [continuing]. I think there undoubtedly are, and 
it is one of the reasons that we have had discussions at the 
Deputies Committee at the White House, to institute some sort 
of improved coordination function that would still be 
interagency led. That sort of coordination can be done better, 
but the important thing is Washington having a light hand of 
coordination and then enabling a coordinated face among the 
Federal, State, and local officials in the field so they can 
adjust their strategies for outreach and engagement at a local 
level because local circumstances differ very significantly.
    Chairman Lieberman. Right. So now let me focus in, in the 
counter-homegrown radicalization effort on the reality that the 
war against terrorism, Islamist terrorism, is a war of ideas 
and values, because underneath all these brutal acts, there is 
an ideology, an extreme theology that is totally inconsistent 
with our values. And as we have said here before, we assumed at 
the outset of this that--and I like to think, for most Muslim-
Americans it is still true that they are much more accepted, 
integrated, free, and successful here than in other countries 
of their diaspora. And yet, there clearly is a group, 
particularly younger people, younger males, but not exclusively 
males, who are vulnerable to the jihadist approach about ideas 
that they get, particularly on the Internet, but also from 
individuals they run into.
    So how do we coordinate--I know what we are doing with 
public diplomacy abroad. This is very different in its way. How 
do we figure out how to target and get that message out to what 
is a relatively small group of Americans who can nonetheless 
cause very large damage, pain, and death in our country?
    Mr. Leiter. Mr. Chairman, I think you have clearly 
identified the challenge, and I would say it is a different 
challenge than what we have seen overseas, because unlike the 
population of the United Kingdom, it is not easily isolated to 
a single demographic group.
    Chairman Lieberman. Right.
    Mr. Leiter. It is quite varied here. But I think the key 
point I would make is the Federal Government will be able to do 
some of this. State and local governments will be able to do a 
lot of this.
    Chairman Lieberman. Who does it? Is it the Department of 
Education? I mean, I was surprised, as I have said before at 
these hearings, that when we have asked leaders in the Muslim-
American community who do you have most contact with in the 
Federal Government--this was 2 or 3 years ago--and they said 
the FBI.
    Mr. Leiter. Well, my last point there, and then I am going 
to come to your question, specifically Muslim-American 
communities are key in this. And I think we have seen, since 
September 11, 2001, Muslim-American mainstream communities 
condemn terrorism and al-Qaeda. I think over the past year, 
with the growth of radicalization, we have seen a corresponding 
growth in mainstream Muslim communities condemning this. We 
have to as the Federal Government help enable that and amplify 
that.
    Now, your point about who in the Federal Government should 
be the face of this, my answer is lots of people, including 
ones who are not sitting at this table. We helped coordinate, 
about a month ago now, a roundtable effort in Minneapolis 
through the Department of Education----
    Chairman Lieberman. Good.
    Mr. Leiter [continuing]. With various educators from 
communities that have significant Somali-American populations 
to talk to them about the radicalization issues and get their 
input. Health and Human Services, Citizenship and Immigration 
Services, all of these are critical partners, because Director 
Mueller's folks do a great job, but every once in a while, 
people react, in a way you do not want them to, when the FBI 
shows up.
    Chairman Lieberman. Well, sure. That was what was 
surprising about the answer. I mean, it was a positive answer, 
that they had the most constructive interaction with the FBI.
    Do either of you want to add to that, about the counter-
homegrown radicalization effort?
    Secretary Napolitano. Yes, first of all, I think there is 
no one way of counter-messaging. Second, I think that we are 
learning a lot about counter-messaging. Third, as I mentioned 
earlier, Mr. Chairman, our focus has been on sharing 
information and empowering local first responders, whether they 
are police, or other first preventers, and to empower them on 
kind of a community policing theory to be working with specific 
communities, building those strong relationships, recognizing 
that they will be more effective locally than anything we can 
do from Washington.
    That being said, both our Civil Rights and Civil Liberties 
group and others, have been actively out around the country 
having town halls and sessions similar to what Director Leiter 
mentioned. Some of them are co-scheduled, by the way. I mean 
they are done together. In addition, Citizenship and 
Immigration Services is part of the Department of Homeland 
Security, and they have a lot of outreach into communities. So 
there is a lot of that that goes on, but I think our key 
strategy here is to really work through the local first 
responders.
    Chairman Lieberman. You want to say anything, Director, in 
defense of the FBI?
    Mr. Mueller. No, not in defense. I would say, however, that 
a success, whether it be law enforcement or intelligence, is 
generally dependent upon relationships.
    Chairman Lieberman. Right.
    Mr. Mueller. And the agencies have probably better coverage 
around the United States. We have the 400 resident agencies in 
many of the communities and our 56 field offices. And it is the 
development of relationships, and from those relationships 
comes the trust and understanding and the ability to see things 
together. And what we strive to do is build up those 
relationships in a variety of ways. And we are a piece of it, 
but there are other aspects of it, the war of ideas versus 
identifying radicalization, and moving to prevent persons from 
being radicalized to the point that they are willing to 
undertake extremist events. But it is very important for us and 
I think we play a strong role in it.
    Chairman Lieberman. Well, I agree, of course. It is very 
important to be proactive and, to the extent that you can, to 
coordinate those efforts. Thank you.
    Senator Collins.
    Senator Collins. Mr. Chairman, when I hear the witnesses 
describe the outreach efforts, I cannot help but think that we 
have a lot of good people, a lot of good agencies, a lot of 
activity, but there still does not seem to be an overall 
strategy, nor accountability built in, nor a means of assessing 
the success. And I think that is what the Kean-Hamilton report 
was trying to say. It is not that there are not great efforts 
going on in various cities by all of your people, but how are 
we assessing the success and who is accountable for determining 
if this approach works versus that approach, whether there are 
best practices that should be shared?
    Director Mueller, you and I had an interesting conversation 
about the British approach, the Prevent Strategy, which has 
been criticized in some ways and may not work well in our 
country for constitutional and cultural reasons. But I am 
concerned that this is too diffuse, that it is too nebulous. 
And I do not know to whom to direct this.
    Mr. Leiter, since you responded to me in your opening 
statement, if you would like to start and maybe I will ask all 
three of you to comment.
    Mr. Leiter. Well, Senator, I would offer you six prongs of 
activity that I think do encompass the overall approach to this 
strategy and the effort here. And I want to stress that, again, 
NCTC is not in charge of this. NCTC has a coordinating function 
in this.
    Senator Collins. That is my point. Who is in charge?
    Mr. Leiter. I understand, Senator, and what I tried to 
stress at the opening was I think there is a coordinated policy 
which comes from the White House. There is a coordination of 
efforts in conjunction with the White House through NCTC, and 
then there is an assessment role that NCTC has to provide those 
assessments back to the White House. And that final prong is 
that the White House is requiring monthly updates, not just on 
domestic countering violent extremism but global countering 
violent extremism to measure the effectiveness of programs.
    Senator Collins. Director Mueller, do you have anything to 
add to that?
    Mr. Mueller. The problem itself is multifaceted with 
radicalization occurring from persons overseas--there are a 
number of areas in the Federal Government where I would like to 
say, put somebody in charge. Often, it takes a representative 
of the White House, who has a coordinating activity, whether it 
be in foreign policy or sometimes in military policy and the 
like, and which a number of entities and institutions play a 
particular role. I am not certain that this is not one of those 
areas in which National Security Council, through NCTC, is able 
to coordinate and direct and identify whatever gaps there may 
be, as opposed to identifying one person in that hierarchy and 
saying, OK, you are in charge. I throw that out as sort of a 
reflection on the challenge and the issue that we have in 
something like this that is so complex.
    Senator Collins. Mr. Leiter, let me go back to you for a 
moment. Do you think it would be helpful to have a strategy?
    Mr. Leiter. I think it is helpful to ensure that the entire 
interagency is on the page of what needs to get done. I think 
that could be done through a written strategy. I think there 
are additional disadvantages of a strategy, though. Sometimes 
people can get wrapped around the axle trying to write that 
strategy rather than to do the work that we know has to be 
done.
    Senator Collins. Secretary Napolitano.
    Secretary Napolitano. I think I would concur with both 
Directors Leiter and Mueller. I believe that we know and have 
had a number of meetings and discussions on countering violent 
extremism (CVE). We know that each of our departments and 
others are all doing important work. We know there is 
communication that is occurring between those departments. We 
know that NCTC has some coordinating role that is a very 
important one. And perhaps the only thing that is missing out 
of that is an overarching written strategy, and it may be that 
at some point we want to invest in that. But I do not think the 
lack of a single document on CVE should be mistaken for a lack 
of activity in that area. There has been a tremendous amount.
    Senator Collins. Madam Secretary, I want to go back to an 
answer that you gave to the Chairman because I felt it was 
incomplete. And it had to do with the actions that we had taken 
to catch the Times Square would-be bomber on the airplane. You 
said that TSA now vets the list, but, in fact, isn't TSA doing 
that vetting only for U.S. carriers?
    Secretary Napolitano. Senator, actually, they have moved 
and cut over a large number of international carriers as well, 
and have prioritized flag carriers from countries of particular 
interest. And I would be happy to give you that list.
    Senator Collins. So are they doing--let me pin you down on 
this. Is TSA doing the vetting for all carriers whether 
domestic or foreign?
    Secretary Napolitano. They will complete the cut over for 
international carriers, I believe, by the end of the calendar 
year. I will get you that list, but they have completed it for 
all domestic and international carriers that carry the great 
majority of passengers, but there are a few airlines left that 
have not yet cut over.
    Senator Collins. Let me switch to another issue. Our 
country has welcomed many people from Somalia. Somalia has been 
a failed state. We have had many people come into our country 
and seek status as refugees. Given that we very generously 
welcome people from failed states like Somalia, how do we 
ensure that a Somali who presents himself at our borders is not 
a member of al-Shabaab seeking entrance into our country 
through our refugee system?
    Secretary Napolitano. Senator, we run names and identities 
of those seeking refugee status across a number of databases 
when applications are made. We are working on a system to be 
able to apply after acquired derogatory information; if 
someone, for example, has lied on their refugee application, we 
would be able to go backwards as well as looking at what we 
have at the time of application. That is a project that is 
underway. It is not complete.
    Senator Collins. I think it is a real problem and something 
that we need to take a closer look at.
    Secretary Napolitano. Indeed.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. Senator 
Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Director Mueller, there is a loophole in Federal law that 
prevents the Federal Government from stopping the sale of 
firearms or explosives to a person who is on the terrorist 
watchlist, unless that individual falls into some other 
category, like having a criminal record. But being on the 
terrorist watchlist in and of itself is not sufficient to 
prevent the sale.
    According to a May 2010 GAO report, individuals on the 
terrorist watchlist were able to purchase firearms and 
explosives from licensed dealers about 1,120 times between 2004 
and 2010. To close that loophole, Senator Lautenberg has 
introduced legislation, which I have cosponsored, that would 
give the attorney general the authority to deny the transfer of 
a firearm when an FBI background check reveals that the 
prospective purchaser is a known or suspected terrorist and the 
attorney general has a reasonable belief that the purchaser may 
use the firearm in connection with terrorism.
    Do you believe that the Department of Justice should have 
the authority to block guns and explosives sales to suspected 
terrorists, and do you believe they should be able to block the 
sale of guns to persons who are on the terrorist watchlist?
    Mr. Mueller. I would defer to the department in responding 
on the policy questions inherent in what you are asking, sir, 
with regard to that legislation. I can say, needless to say, we 
share a common interest in keeping guns out of the hands of 
terrorists. In the meantime, what we do is when a person's name 
shows up on the Terrorist Screening Center watchlist, we take 
what time is necessary to do an immediate investigation as to 
why that person was on the watchlist and what the impact of 
selling a gun would be to that individual, and we will take 
what steps are necessary to protect the American public in the 
meantime.
    Senator Levin. And you have certain number of hours, I 
believe, 72 hours, is that right, to react?
    Mr. Mueller. I believe it is. I would have to check on 
that.
    Senator Levin. And have you been asked by the Department of 
Justice for your opinion as to whether or not persons on the 
terrorist watchlist should be able to buy guns and explosives?
    Mr. Mueller. This would be a particular issue, and versions 
of the legislation have been around for a couple of years. I 
may have been, but I would have to go back and check and get 
back to you, sir.
    Senator Levin. Well, do you have an opinion? I know that 
the Department of Justice makes the policy decisions, but do 
you have an opinion on the subject?
    Mr. Mueller. As I have said before, I think all of us would 
want to keep weapons out of the hands of terrorists.
    Senator Levin. And/or persons on the terrorist watchlist?
    Mr. Mueller. And/or persons on the terrorist watchlist, 
yes.
    Senator Levin. And what about maintaining the records? Now, 
the FBI is required to destroy the National Instant Criminal 
Background Check System, generated and approved firearm 
transfer records after 90 days, for those persons who are on 
the terrorist watchlist.
    Would you like to be able to keep those records for longer 
than 90 days for persons on the terrorist watchlist?
    Mr. Mueller. I am generally in favor of records retention 
whether it comes to communication carriers records or records 
relating to the purchase and sales of guns because the 
retention of records gives us an ability to go back when we 
identify some person to determine whether or not there is 
additional information we would have in those records that 
would enable us to conduct a more efficient investigation.
    Senator Levin. And does your general view in that matter 
apply specifically to transfers to persons who are on the 
terrorist watchlist?
    Mr. Mueller. It applies generally to records retention 
across the board.
    Senator Levin. Does that include those persons?
    Mr. Mueller. I would generally be in favor of records 
retention, yes.
    Senator Levin. Have you determined how many firearm 
transactions by suspected terrorists, or persons on the 
terrorist watchlist, between 2004 and 2010 involved purchasers 
who were subsequently charged with a crime?
    Mr. Mueller. I do not know that. I do not dispute the GAO 
figures that you listed, but I do not know the breakdown of 
those figures and I would have to get back to you as to how 
many of those were subsequently convicted of a crime.
    Senator Levin. Would you see if you can determine? That is 
a very specific number of cases and could you tell us how many 
were subsequently prosecuted, charged with crimes?
    Mr. Mueller. It is probably much easier to find out how 
many were arrested, but to follow it through the court system 
would be----
    Senator Levin. That is OK. Arrest would be fine.
    Mr. Mueller. OK.
    Senator Levin. And finally, there was a question which we 
asked for the record. We had a hearing in this Committee on May 
5 entitled, ``Terrorists and Guns: The Nature of the Threat and 
Proposed Reforms'' that looked at the issue you and I have just 
been discussing. Mr. Roberts, the assistant director of the FBI 
Criminal Justice Information Services Division, testified at 
that hearing. I submitted questions for the record.
    Following the hearing, answers to those questions were 
supposed to be received a long time ago. They would have helped 
a great deal, frankly, in preparing for this hearing. Can you 
check out the reasons why those answers have not been 
forthcoming?
    Mr. Mueller. Yes, I believe we completed those some time 
ago. I will see where they are in the process.
    Senator Levin. Thank you so much. Thank you all.
    Chairman Lieberman. Thanks, Senator Levin.
    Thanks very much to the three of you. This has been a very 
informative, constructive and, of course, as always, unsettling 
hearing. But I appreciate very much your testimony and what you 
are doing. The obvious fact is that the war that began on 
September 11, 2001--although it was actually being conducted by 
Islamist extremists against us before, but it certainly began 
in our response to it after September 11, 2001--goes on across 
the world on many battlefields. And increasingly, we can see, 
from your testimony today and what we know, that our enemies in 
the war with Islamist extremism are bringing the fight to the 
homeland in the United States with greater frequency. And while 
this started, clearly, as a war of foreign nationals against 
us, and it is still primarily that, they are working 
increasingly to build alliances or essentially recruit soldiers 
for their army against us from within the United States.
    So the threat is evolving and in some sense increasing to 
the homeland, but so is our defense evolving and increasing. 
And it certainly gives me, and I hope will give the American 
people, some sense of confidence in the midst of this 
unconventional conflict that has come home within the 
continental United States in an unprecedented way.
    I was thinking as I was listening in the most simplistic 
terms, we are in a fight that we did not start. But now that we 
are in it, we are damn sure not going to lose it. And I am 
confident, based on everything you and all the people working 
with you are doing, that we will be successful in that regard. 
It is not going to happen tomorrow. It is going to go on for a 
period of years. But in the end, we are going to triumph.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I just want to echo your thanks to our witnesses and also 
to the thousands of Federal employees who work for them and 
with them each and every day to try to detect, deter, and 
defend our country against terrorist attacks. The focus tends 
always to be on the failures, and we all know from our 
classified briefings that there are so many successes that the 
public never hears about. And I just want to acknowledge that 
publicly here today.
    I am going to, for the record, follow up on some issues 
that we did not get into today. For example, in the Washington 
Post today, there is a story about Bob Woodward's new book that 
says that a classified exercise in May showed that the 
government was ``woefully unprepared to deal with a nuclear 
terrorist attack in the United States.''
    I chose not to go into this today because I have a feeling 
this is something we would need to deal with in a classified 
setting in any event. But obviously, that is very troubling. We 
have had on this Committee repeated hearings on our ability to 
deal with a nuclear attack, whether it is a full-scaled weapon 
or a dirty bomb, as well as looking at chemical and biological 
attacks. We know the warning from the Graham-Talent Commission 
of an attack somewhere in the world by the year 2013 using a 
nuclear, chemical, or biological weapon, still rings in my 
ears. And so, I do believe this is an issue that we need to 
pursue as well.
    Finally, in my private meeting with Director Mueller, I 
asked him, ``What do you need from us?'' And I would invite all 
of you, for the record, to tell us what changes in laws, what 
different allocation and resources, what you need from Congress 
in order to more effectively carry out the counterterrorism 
mission with which you have been charged and which is so 
critical to our Nation's security.
    But again, I thank you very much for your hard work, 
dedication and commitment.
    Chairman Lieberman. Thanks, Senator Collins, very well 
done.
    Do any of you want to say a final word? Madam Secretary.
    Secretary Napolitano. No, except I really appreciate 
thanking the men and women who work in our departments. To go 
back to a comment you made in your opening, Mr. Chairman, a lot 
of them work very hard--and do not get a lot of sleep 
sometimes. So I really want to express my appreciation to them, 
and I will try to get some additional information to Senator 
McCain.
    Senator Levin. And I am sure you would want to add, as we 
all feel, that they do this at great risk, frequently, to their 
own well-being and to their families' well-being, and that is 
true in all of your cases.
    Chairman Lieberman. Right.
    Secretary Napolitano. Indeed.
    Senator Levin. And we are doubly grateful for that risk 
that they take.
    Mr. Mueller. Nothing to add. Thank you.
    Chairman Lieberman. Thank you.
    So that phrase was from Abraham Lincoln, who is always a 
great source of wisdom, said, obviously, at a different time of 
conflict in our country, at home, too, of course, but that we 
would fight with ``energy and sleepless vigilance.'' And I 
thank all of you for doing exactly that.
    The record will stay open for 15 days for the submission of 
additional statements or questions. The hearing is adjourned.
    [Whereupon, at 12:17 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 63832A.001

[GRAPHIC] [TIFF OMITTED] 63832A.002

[GRAPHIC] [TIFF OMITTED] 63832A.003

[GRAPHIC] [TIFF OMITTED] 63832A.004

[GRAPHIC] [TIFF OMITTED] 63832A.005

[GRAPHIC] [TIFF OMITTED] 63832A.006

[GRAPHIC] [TIFF OMITTED] 63832A.007

[GRAPHIC] [TIFF OMITTED] 63832A.008

[GRAPHIC] [TIFF OMITTED] 63832A.009

[GRAPHIC] [TIFF OMITTED] 63832A.010

[GRAPHIC] [TIFF OMITTED] 63832A.011

[GRAPHIC] [TIFF OMITTED] 63832A.012

[GRAPHIC] [TIFF OMITTED] 63832A.013

[GRAPHIC] [TIFF OMITTED] 63832A.014

[GRAPHIC] [TIFF OMITTED] 63832A.015

[GRAPHIC] [TIFF OMITTED] 63832A.016

[GRAPHIC] [TIFF OMITTED] 63832A.017

[GRAPHIC] [TIFF OMITTED] 63832A.018

[GRAPHIC] [TIFF OMITTED] 63832A.019

[GRAPHIC] [TIFF OMITTED] 63832A.020

[GRAPHIC] [TIFF OMITTED] 63832A.021

[GRAPHIC] [TIFF OMITTED] 63832A.022

[GRAPHIC] [TIFF OMITTED] 63832A.023

[GRAPHIC] [TIFF OMITTED] 63832A.024

[GRAPHIC] [TIFF OMITTED] 63832A.025

[GRAPHIC] [TIFF OMITTED] 63832A.026

[GRAPHIC] [TIFF OMITTED] 63832A.027

[GRAPHIC] [TIFF OMITTED] 63832A.028

[GRAPHIC] [TIFF OMITTED] 63832A.029

[GRAPHIC] [TIFF OMITTED] 63832A.030

[GRAPHIC] [TIFF OMITTED] 63832A.031

[GRAPHIC] [TIFF OMITTED] 63832A.032

[GRAPHIC] [TIFF OMITTED] 63832A.033

[GRAPHIC] [TIFF OMITTED] 63832A.034

[GRAPHIC] [TIFF OMITTED] 63832A.035

[GRAPHIC] [TIFF OMITTED] 63832A.036

[GRAPHIC] [TIFF OMITTED] 63832A.037

[GRAPHIC] [TIFF OMITTED] 63832A.038

[GRAPHIC] [TIFF OMITTED] 63832A.039

[GRAPHIC] [TIFF OMITTED] 63832A.040

[GRAPHIC] [TIFF OMITTED] 63832A.041

[GRAPHIC] [TIFF OMITTED] 63832A.042

[GRAPHIC] [TIFF OMITTED] 63832A.043

[GRAPHIC] [TIFF OMITTED] 63832A.044

[GRAPHIC] [TIFF OMITTED] 63832A.045

[GRAPHIC] [TIFF OMITTED] 63832A.046

[GRAPHIC] [TIFF OMITTED] 63832A.047

[GRAPHIC] [TIFF OMITTED] 63832A.048

[GRAPHIC] [TIFF OMITTED] 63832A.049

[GRAPHIC] [TIFF OMITTED] 63832A.050

[GRAPHIC] [TIFF OMITTED] 63832A.051

[GRAPHIC] [TIFF OMITTED] 63832A.052

[GRAPHIC] [TIFF OMITTED] 63832A.053

[GRAPHIC] [TIFF OMITTED] 63832A.054

[GRAPHIC] [TIFF OMITTED] 63832A.055

[GRAPHIC] [TIFF OMITTED] 63832A.056

[GRAPHIC] [TIFF OMITTED] 63832A.057

[GRAPHIC] [TIFF OMITTED] 63832A.058

[GRAPHIC] [TIFF OMITTED] 63832A.059

[GRAPHIC] [TIFF OMITTED] 63832A.060

[GRAPHIC] [TIFF OMITTED] 63832A.061

[GRAPHIC] [TIFF OMITTED] 63832A.062

[GRAPHIC] [TIFF OMITTED] 63832A.063

[GRAPHIC] [TIFF OMITTED] 63832A.064

[GRAPHIC] [TIFF OMITTED] 63832A.065

[GRAPHIC] [TIFF OMITTED] 63832A.066

[GRAPHIC] [TIFF OMITTED] 63832A.067

[GRAPHIC] [TIFF OMITTED] 63832A.068

[GRAPHIC] [TIFF OMITTED] 63832A.069

[GRAPHIC] [TIFF OMITTED] 63832A.070

[GRAPHIC] [TIFF OMITTED] 63832A.071

[GRAPHIC] [TIFF OMITTED] 63832A.072

[GRAPHIC] [TIFF OMITTED] 63832A.073

[GRAPHIC] [TIFF OMITTED] 63832A.074

[GRAPHIC] [TIFF OMITTED] 63832A.075

[GRAPHIC] [TIFF OMITTED] 63832.082

[GRAPHIC] [TIFF OMITTED] 63832.083

[GRAPHIC] [TIFF OMITTED] 63832.084

[GRAPHIC] [TIFF OMITTED] 63832.085

[GRAPHIC] [TIFF OMITTED] 63832.086

[GRAPHIC] [TIFF OMITTED] 63832.087

[GRAPHIC] [TIFF OMITTED] 63832.088

[GRAPHIC] [TIFF OMITTED] 63832.089

[GRAPHIC] [TIFF OMITTED] 63832.090

[GRAPHIC] [TIFF OMITTED] 63832.091

[GRAPHIC] [TIFF OMITTED] 63832.092

[GRAPHIC] [TIFF OMITTED] 63832.093

[GRAPHIC] [TIFF OMITTED] 63832.094

[GRAPHIC] [TIFF OMITTED] 63832.095

[GRAPHIC] [TIFF OMITTED] 63832.096

[GRAPHIC] [TIFF OMITTED] 63832.097

[GRAPHIC] [TIFF OMITTED] 63832.098

[GRAPHIC] [TIFF OMITTED] 63832A.076

[GRAPHIC] [TIFF OMITTED] 63832A.077

[GRAPHIC] [TIFF OMITTED] 63832A.078

[GRAPHIC] [TIFF OMITTED] 63832A.079

[GRAPHIC] [TIFF OMITTED] 63832A.080

[GRAPHIC] [TIFF OMITTED] 63832A.081

                                 <all>

</pre></body></html>
